<html>
<title> - EXAMINING THE EU SAFE HARBOR DECISION AND IMPACTS FOR TRANSATLANTIC DATA FLOWS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


           EXAMINING THE EU SAFE HARBOR DECISION 
            AND IMPACTS FOR TRANSATLANTIC DATA FLOWS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                AND THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2015

                               __________

                           Serial No. 114-97
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               ____________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-571                          WASHINGTON : 2016                        
                    
                    
_______________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e697e614e6d7b7d7a666b627e206d616320">[email&#160;protected]</a>  
                 
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)
                                 ------                                

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     2
    Prepared statement...........................................     2
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     5
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9

                               Witnesses

Victoria Espinel, President and CEO, Business Software Alliance..    11
    Prepared statement...........................................    13
Joshua Meltzer, Senior Fellow, Global Economy and Development, 
  Brookings Institute............................................    19
    Prepared statement...........................................    21
Marc Rotenberg, President, Electronic Privacy Information Center.    41
    Prepared statement...........................................    43
John Murphy, Senior Vice President for International Policy, U.S. 
  Chamber of Commerce............................................    61
    Prepared statement...........................................    63

                           Submitted material

List of 4,400 Safe Harbor organizations \1\......................   100
Statement of the Internet Association, submitted by Ms. Eshoo....   101
Article entitled, ``EU Safe Harbor Demised Raises Retroactivity 
  Concerns,'' Bloomberg Government, October 7, 2015, submitted by 
  Mr. Olson......................................................   104
Statement of International Trade Administration, submitted by Mr. 
  Burgess........................................................   107
Statement of the Direct Marketing Association, submitted by Mr. 
  Burgess........................................................   111
Statement of the Information Technology & Innovation Foundation, 
  submitted by Mr. Burgess.......................................   114
Statement of American Action Forum...............................   136
Statement of alliance of automobile manufacturers................   139

----------
\1\ Available at: http://docs.house.gov/meetings/if/if16/
  20151103/104148/hhrg-114-if16-20151103-sd015.pdf.

 
  EXAMINING THE EU SAFE HARBOR DECISION AND IMPACTS FOR TRANSATLANTIC 
                               DATA FLOWS

                              ----------                              


                       TUESDAY, NOVEMBER 3, 2015

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                                             joint with the
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. Michael Burgess 
(chairman of the subcommittee on Commerce, Manufacturing, and 
Trade) presiding.
    Present from the subcommittee on Commerce, Manufacturing, 
and Trade: Representatives Burgess, Lance, Blackburn, Harper, 
Guthrie, Olson, Pompeo, Kinzinger, Bilirakis, Brooks, Mullin, 
Upton (ex officio), Schakowsky, Clarke, Kennedy, Welch, and 
Pallone (ex officio).
    Present from the subcommittee on Communications and 
Technology: Representatives Walden, Latta, Shimkus, Blackburn, 
Lance, Guthrie, Olson, Pompeo, Kinzinger, Bilirakis, Johnson, 
Long, Collins, Barton, Upton (ex officio), Eshoo, Welch, 
Clarke, Loebsack, Matsui, McNerney, and Pallone (ex officio).
    Staff present: Gary Andres, Staff Director; Ray Baum, 
Senior Policy Advisor for Communications and Technology; 
Leighton Brown, Press Assistant; James Decker, Policy 
Coordinator for Commerce, Manufacturing, and Trade; Andy 
Duberstein, Deputy Press Secretary; Melissa Froelich, Counsel 
for Commerce, Manufacturing, and Trade; Grace Koh, Counsel for 
Telecom; Paul Nagle, Chief Counsel for Commerce, Manufacturing, 
and Trade; Tim Pataki, Professional Staff Member; David Redl, 
Counsel for Telecom; Charlotte Savercool, Professional Staff 
for Communications and Technology; Dylan Vorbach, Legislative 
Clerk for Commerce, Manufacturing, and Trade; Gregory Watson, 
Legislative Clerk for Communications and Technology and 
Oversight and Investigations; Michelle Ash, Chief Counsel for 
Commerce, Manufacturing, and Trade; Christine Brennan, Press 
Secretary; Jeff Carroll, Staff Director; David Goldman, Chief 
Counsel for Communications and Technology; Lisa Goldman, 
Counsel; Tiffany Guarascio, Deputy Staff Director and Chief 
Health Advisor; Lori Maarbjerg, FCC Detailee; Diana Rudd, Legal 
Fellow; Ryan Skukowski, Policy Analyst; and Jerry Leverich, 
Counsel for Communications and Technology.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Very well. I will ask all of our guests to 
take their seats. The joint subcommittees on Commerce, 
Manufacturing, and Trade and the subcommittee on Communications 
and Technology will now come to order.
    I will recognize myself 4 minutes for the purpose of an 
opening statement.
    And I do want to welcome you all to our joint hearing on 
the Transatlantic Data Flows and the Impact of the European 
Union Safe Harbor Decision.
    Over 4,400 businesses have self-certified compliance with 
the Safe Harbor agreement through the Department of Commerce. A 
lot of jobs, a lot of industries are connected to those 4,400 
businesses. The Safe Harbor agreement has provided a mechanism 
to carry out commerce with the European Union. There is no 
trade partnership, no trade partnership that is more important 
than the trade partnership with the European Union. The depth 
and breadth of the United States and the European Union 
relationship is not simply economic. It is strategically 
important, and it is also one of respect and cooperation.
    In today's world, as our members know, you can't do 
business without digital data flows. So today, our two 
subcommittees send an important message. There is no reason to 
delay. Both sides have all that is needed to put a sustainable 
Safe Harbor agreement into place. It is our understanding that 
there is an agreement in principle. And I certainly thank the 
important work that the Department of Commerce has done to 
achieve a new agreement. They offered a bipartisan briefing to 
our members. Their message was the correct one. We cannot let 
anything get in the way of moving as quickly as possible to 
secure the new Safe Harbor agreement.
    I also want to thank the important enforcement work that 
the Federal Trade Commission has done enforcing the existing 
Safe Harbor framework. I know that they will continue to do the 
same for the new Safe Harbor.
    For the sake of our jobs, for the sake of small and medium-
sized businesses relying on the Safe Harbor, and of all of the 
jobs that they support in both the United States and the 
European Union, I encourage all parties to stay at the 
negotiating table to solidify a new data transfer agreement 
well in advance of the January 2016 deadline. There is no other 
path forward. And I can assure you that our committee will 
continue to watch the negotiations closely and to be helpful 
where we can.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Over 4,400 businesses self-certified compliance with the 
Safe Harbor agreement through the Department of Commerce. An 
awful lot of jobs and an awful lot of industries are connected 
to those 4,400 businesses.
    The Safe Harbor Agreement had provided a safe mechanism to 
carryout commerce with the European Union. There is no trade 
partnership more important than the trade partnership with the 
EU. The depth and breadth of the U.S. and EU relationship is 
not simply economic--this is a strategically important 
relationship of respect and cooperation. But in today's world, 
as our members know, you can't do business without digital data 
flows.
    So today, our two subcommittees send an important message. 
There is no reason to delay. Both sides have all that is needed 
to put a sustainable Safe Harbor agreement in place. Our 
understanding is that there is an agreement in principle. And I 
applaud the important work the Department of Commerce has done 
to achieve a new agreement. They offered a bi-partisan briefing 
to our Members last week. Their message is the right one--we 
cannot let anything get in the way of moving as quickly as 
possible to secure the new Safe Harbor agreement. I also want 
to applaud the important enforcement work that the Federal 
Trade Commission has done enforcing the existing safe harbor 
framework. I know that they will do the same for the new safe 
harbor.
    For the sake of the small and medium sized business relying 
on the Safe Harbor, and all of the jobs they support in both 
the U.S. and the EU, I encourage all parties to stay at the 
negotiating table to solidify a new data transfer agreement 
well in advance of the January 2016 deadline. There is no other 
path forward that I can support. And I can assure you that our 
Committee will continue to watch the negotiations closely.

    Mr. Burgess. I would now like to recognize the vice chair 
of the Communications subcommittee, Mr. Latta, for the 
remainder of the time.
    Mr. Latta. Well, I thank the chairman for yielding, and I 
also thank our witnesses for being here today.
    We are all aware of the crucial role the internet plays in 
the trade relationship between the United States and the 
European Union. For over a decade, the U.S.-E.U. Safe Harbor 
agreement has recognized the internet's importance and kept 
cross-border data flows open to reduce barriers to trade.
    However, since the Court of Justice ruled the agreement 
invalid, the U.S. has diligently worked on revising the 
framework to prevent a hindrance to the global economy. My hope 
for today's hearing is to continue the discussion on a 
framework that will provide marketplace stability and 
adequately protect consumer data. It is imperative for U.S. and 
European companies to be able to operate and conduct 
transatlantic business with certainty.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the ranking member of the Subcommittee 
on Commerce, Manufacturing, and Trade, Ms. Schakowsky, for 4 
minutes for an opening statement, please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman, and Chairman 
Walden as well for calling today's joint hearing on the 
implications of the Schrems v. Data Protection Commissioner 
decision on the Safe Harbor agreement and the future of U.S.-
E.U. cross-border data flows. This is an important and timely 
subject for our subcommittee to consider, and I welcome our 
witnesses.
    The Safe Harbor framework included principles that U.S. 
companies could follow in order to meet E.U. standards for data 
security and privacy. That framework has enabled American 
companies to attract and retain European business with the 
American and E.U. economies representing almost half of the 
global economic activity, the value of a functional Safe Harbor 
agreement cannot be overstated.
    The Schrems decision threatens to undermine business 
between our countries and the European continent. The more than 
4,000 American companies and millions of U.S. employees who 
have worked to abide by the Safe Harbor agreement cannot afford 
that outcome.
    But the Schrems decision does rightly call into question 
the adequacy of U.S. data security practices. There are 
legitimate concerns about the protection of personal 
information collected and stored online, not just for European 
citizens, but actually for our own as well.
    As a former member of the House Intelligence Committee, I 
believe that we must establish adequate and transparent data 
security and privacy protections, and if we fail to do that, 
the economic implications could be disastrous.
    I will soon introduce legislation that would require strong 
security standards for a wide array of personal data, including 
geolocation, health-related, biometric, and email and social 
media account information. It would also require breached 
companies to report the breach to consumers within 30 days. My 
bill would enhance data security standards here at home, and it 
would probably have the added benefit of making the E.U. more 
confident in U.S. privacy and data security standards.
    I look forward to hearing our witnesses' prescriptions for 
a path forward that will maintain cross-border data flows, 
while enhancing the security of data held in the United States. 
Our businesses, our workers and consumers in the United States 
and European Union deserve no less.
    And I would like to yield the balance of my time to 
Representative Matsui for her remarks.
    Ms. Matsui. Thank you. Thank you very much.
    Data is a lifeblood of the 21st century economy and 
critical to innovation and competition. Through my work as co-
chair of the Congressional High Tech Caucus, I understand the 
importance of cross-border flow policies that support economic 
growth.
    This is about more than the over 4,000 businesses which 
rely on Safe Harbor but also the hundreds of millions of 
consumers in the United States and Europe that rely upon 
services that move data across borders. We can all agree that 
the Safe Harbor standards written before the advent of the 
smartphone or the widespread use of cloud services deserve to 
be updated, and we can do so in a way that recognizes the 
importance of protecting private personal information while 
also reaping the benefits of our interconnected economies.
    I look forward to hearing from today's witnesses, and I 
yield back the balance of my time.
    Ms. Schakowsky. And I yield back.
    Mr. Burgess. The chair thanks the gentlelady. The 
gentlelady yields back.
    The chair now recognizes the chairman of the full 
committee, Mr. Upton, 4 minutes for an opening statement, 
please.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Our partnership with Europe has always been marked by 
friendship, shared interest, and mutual benefit. From autos to 
ideas, an awful lot of things made in Michigan and across the 
country have made their way across the Atlantic.
    Of course, it is just not the U.S. that benefits from our 
relationship with Europe. The exchange of goods and services 
between the U.S. and E.U. amounts to almost $700 billion. It is 
critical to both of our economies. Important to this trade 
infrastructure is the free flow of information, and the 
inability to pass data freely between the two jurisdictions is 
a barrier to the growth of our two economies.
    So we must move swiftly towards a framework for a 
sustainable Safe Harbor. And while I recognize there are some 
who want to leverage this important relationship and focus on 
areas of disagreement, I would urge folks to keep in mind the 
countless small and medium enterprises that rely on the Safe 
Harbor framework. I support the work and direction of the 
Department of Commerce in negotiating this new framework and I 
encourage its speedy adoption, and yield the balance of my time 
to Mrs. Blackburn.
    [The prepared statement of Mr. Upton follows:]

               Prepared statement of the Hon. Fred Upton

    Our partnership with Europe has always been marked by 
friendship, shared interest, and mutual benefit. From autos to 
ideas, an awful lot of things made in Michigan have made their 
way across the Atlantic. Of course, it's not just Michigan that 
benefits from our relationship with Europe. The exchange of 
goods and services between the U.S. and the EU amounts to 
almost 700 billion dollars; it is critical to both of our 
economies. Integral to this trade infrastructure is the free 
flow of information, and the inability to pass data freely 
between the two jurisdictions is a barrier to the growth of our 
two economies.
    We must move swiftly forward toward a framework for a 
sustainable Safe Harbor. While I recognize that there are some 
who want to leverage this important relationship and focus on 
areas of disagreement, I would urge folks to keep in mind the 
countless small and medium enterprises that rely on the Safe 
Harbor framework. I support the work and direction of the 
Department of Commerce in negotiating this new framework and I 
encourage its speedy adoption.

    Mrs. Blackburn. Thank you, Mr. Chairman.
    And I am so appreciative of our witnesses being here and 
for the hearing on this issue today. It is something that needs 
some thoughtful attention, and we look forward to directing our 
attention to solving the issue.
    The chairman mentioned the amount of trade, and when you 
are looking at nearly $1 trillion in bilateral trade and 
knowing that the free flow of information is important to this, 
data transfer rights are important to this discussion. We do 
need to approach this thoughtfully.
    Mr. Meltzer, I was caught by your stat on digital trade and 
what it has done to increase the U.S. GDP, and then on the fact 
that the U.S.-E.U. data transfers are 50 percent higher than 
the U.S.-Asia transfers, and I think that the difference in 
those flows is really quite remarkable. So I will want to visit 
with you more about that.
    Congress has attempted, through a couple of pieces of 
legislation, as you all know, the Judicial Redress Act and the 
Freedom Act, to address the privacy concerns. I had the 
opportunity several months ago to be in Europe and discuss with 
some of our colleagues, Members of Parliament, their concerns, 
and I hope that we are going to be able to negotiate in good 
faith and find some answers.
    And with that, Mr. Chairman, I will yield to you the 
balance of my time if any other Member would like to claim it.
    Mr. Burgess. The chair thanks the gentlelady. The 
gentlelady yields back.
    The chair recognizes the gentlelady from California, Ms. 
Eshoo, the ranking member of the subcommittee on 
Communications.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman.
    And I want to thank you and the ranking member of your 
subcommittee for joining with Communications and Technology 
Subcommittee to have this important hearing. I thank the 
witnesses for being here. And we have a very full hearing room, 
so there is not only a great deal of interest in this issue, 
but there is a lot at stake.
    In my Silicon Valley congressional district and on both 
sides of the Atlantic, companies continue to reel from the 
October 6 decision by the European Court of Justice to nullify 
the U.S.-E.U. Safe Harbor agreement. As one expert remarked, 
``aside from taking an ax to the undersea fiberoptic cables 
connecting Europe to the United States, it is hard to imagine a 
more disruptive action to the transatlantic digital commerce.''
    For the past 15 years, thousands of companies, as has been 
stated by, I think, every member that has spoken so far, both 
small and large have relied upon this agreement to effectively 
and efficiently transfer data across the Atlantic and in a 
manner that protected consumer privacy.
    Recognizing the magnitude of the court's decision, earlier 
this month I joined with several colleagues, both sides of the 
aisle, and a letter to Secretary Pritzker and the FTC 
Chairwoman Ramirez urging the Administration to redouble their 
efforts to come up with a new agreement with the E.U.
    Given the strong economic relationship between the U.S. and 
E.U., estimated over $1 trillion annually, $1 trillion, I mean 
that is--you are really talking about something when you say $1 
trillion--we have to move quickly with the European regulators 
to provide a swift solution to what is no doubt creating a 
great deal of uncertainty. In practice, this means reaching the 
Safe Harbor 2.0 agreement as soon as possible.
    I also think we have to acknowledge that there is an 
elephant in the room, which is a major contributing factor in 
my view in the court's ruling: privacy concerns relating to 
U.S. surveillance methods. Having served on the House 
Intelligence Committee for nearly a decade, I have consistently 
worried about the impact of U.S. surveillance activities on 
both U.S. citizens and companies. Given that the E.U.'s court 
decision made clear that the U.S. must provide ``an adequate 
level of protection'' for E.U.-U.S. data transfers, I look 
forward to hearing from our witnesses about how this can be 
achieved in the Safe Harbor 2.0.
    I think if we don't really deal with this, we will be 
missing a large point here. In a digital economy, there is 
nothing more important than the free flow of data across 
borders. A Congress that is united in support of this goal and 
the reinstatement of a new agreement I think will ensure the 
continued growth of digital commerce in the years to come.
    So I thank our witnesses for being here today and for your 
commitment to ensuring unfettered data transfers between the 
U.S. and the E.U.
    And with that, I yield back the balance of my time, Mr. 
Chairman. Thank you.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair recognizes the chairman of the Communications and 
Technology Subcommittee, Mr. Walden, for 4 minutes for an 
opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman. And I want to thank 
our witnesses for being here. This is obviously an issue of 
great importance to all of us.
    The borderless nature of the internet is an important force 
driving economic success and innovation. For internet-based 
companies, the value of free flow of digital data between the 
E.U. and the United States is obvious. But analysts have also 
pointed out that up to 75 percent of the value added by 
transnational data flows on the internet goes to traditional 
industries, especially via increases in global growth, 
productivity, and employment.
    Communications and technology underpin every sector of the 
global economy, from precision farming to sensor-monitored 
shipping, from Facebook to McDonald's, from footwear 
manufacturers to custom furniture makers. These networks are 
the infrastructure of the 21st century economy, and free flow 
of information is critical to making that infrastructure work.
    The free flow of information has especially benefited small 
and medium-sized companies by opening markets on both sides of 
the Atlantic that were previously inaccessible. These are the 
businesses that gain new consumers simply by virtue of the 
nearly costless ability to find new suppliers, strike quicker 
agreements, or access new markets. These are the businesses 
that will suffer the greatest harm and bear the greatest risk 
if we are not able to come to a new Safe Harbor framework.
    The Safe Harbor cut down on the cost of compliance with the 
various state privacy regulations in the European Union. 
Without the shelter of a Safe Harbor, these businesses have the 
choice of operating at increased risk, paying expensive costs 
to lower that risk, or simply stopping the flow of information 
altogether, that is, stopping business altogether.
    The Department of Commerce estimates that in 2013, 60 
percent of the 4,000-plus participants in the Safe Harbor 
framework were small or medium-sized enterprises, spanning 102 
different industry sectors. A break in the flow of data has the 
potential to cause real impacts to the economies on both sides 
of the proverbial pond.
    So I am encouraged to hear that the negotiators on Safe 
Harbor 2.0 have reached an agreement in principle--that is 
really good news--and I cannot emphasize enough how important 
it is to reach a new and firm agreement before the grace period 
elapses in January.
    I would like to thank our witnesses again for spending time 
to discuss their understanding of the impact of the ruling of 
the European Court of Justice. We welcome your thoughts and let 
forward to hearing from you.
    With that, I would yield such time as the--pardon me? Oh, I 
guess Mr. Barton didn't want any time. Thank you. So I yield 
back balance of my time.
    [The prepared statement of Mr. Walden follows:]

               Prepared statement of the Hon. Greg Walden

    The borderless nature of the Internet is an important force 
driving economic success and innovation. For Internet-based 
companies, the value of the free flow of digital data between 
the EU and the US is obvious. But analysts have also pointed 
out that up to 75 percent of the value added by transnational 
data flows on the Internet goes to ``traditional'' industries, 
especially via increases in global growth, productivity, and 
employment. Communications and technology underpin every sector 
of the global economy--from precision farming to sensor-
monitored shipping, from Facebook to McDonald's, from footwear 
manufacturers to custom furniture makers. These networks are 
the infrastructure of the 21st century economy and the free 
flow of information is critical to making that infrastructure 
work.
    The free flow of information has especially benefited small 
and medium-sized enterprises by opening markets on both sides 
of the Atlantic that were previously inaccessible. These are 
the businesses that gained new consumers simply by virtue of 
the nearly costless ability to find new suppliers, strike 
quicker agreements, or access new markets. These are the 
businesses that will suffer the greatest harm and bear the 
greatest risk if we are not able to come to a new Safe Harbor 
framework. The Safe Harbor cut down on the cost of compliance 
with the various state privacy regulations in the European 
Union. Without the shelter of a Safe Harbor, these businesses 
have the choice of operating at increased risk, paying 
expensive costs to lower that risk, or simply stopping the flow 
of information altogether--that is, stopping business 
altogether.
    The Department of Commerce estimates that in 2013, 60 
percent of the 4,000-plus participants in the Safe Harbor 
framework were small or medium-sized enterprises, spanning 102 
different industry sectors. A break in the flow of data has the 
potential to cause real impacts to the economies on both sides 
of the proverbial pond. I am encouraged to hear that the 
negotiators on Safe Harbor 2.0 have reached an ``agreement in 
principle,'' and I cannot emphasize enough how important it is 
to reach a new and firm agreement before the grace period 
elapses in January.

    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the ranking member of the full 
committee, Mr. Pallone of New Jersey, 4 minutes for an opening 
statement, please.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    This is the committee's second hearing on the topic of data 
moving across national borders. The digital movement of data 
affects consumers and businesses in both the United States and 
in Europe and in every country of the world.
    The U.S. leads the world in technological innovation. It 
has exported over $380 billion worth of digital services in 
2012. Meanwhile, internet commerce grew threefold from 2011 to 
2013 and is expected to reach 133 billion by 2018. And the 
economic relationship between the United States and the 
European Union is the strongest in the world.
    Since our December 2014 hearing on this issue, the big 
change is that the European Court of Justice invalidated the 
Safe Harbor agreement between the United States and the 
European Union that allowed American companies to transfer 
European users' information to the U.S., and the elimination of 
the Safe Harbor has caused great uncertainty.
    However, as early as 2013, long before the court's October 
2015 decision, the 15-year-old agreement was under 
renegotiation. And during this time, the U.S. and the E.U. have 
been working hard to strengthen the privacy principles of the 
original agreement to ensure they cover the newest business 
models and data transfers that exist.
    Almost a year later, we today repeat our desire to see 
those negotiations completed. I urge the parties to quickly 
finalize a new agreement tailor-made for the modern economy and 
the modern consumer. A new agreement can and should improve 
consumer privacy and data security. Businesses can and should 
adhere to strong privacy principles from inception.
    Building trust with consumers worldwide requires a 
multifaceted approach through appropriate legislation and 
regulation, as well as through trade negotiations, and 
therefore, I also would urge this Congress to act by passing 
effective baseline privacy and data security protections. For 
the internet of the future, economic gains and consumer 
protections go hand-in-hand. When consumers feel safe that 
their personal information is protected, they do more business 
online.
    I hope that today's discussion, as well as the ongoing 
negotiations between the United States and the E.U. will 
encourage a step in the right direction on data privacy not 
only for Europeans but for American citizens as well. We can 
have innovation and protections for consumer privacy. We have 
done it time and time again. There is no reason why it should 
be different in this space than in any other.
    In today's heavily digital commercial environment, cross-
border data flows are not just a normal part of doing business 
but essential to the American economy and American jobs. And I 
welcome this opportunity, Mr. Chairman, to discuss the value of 
secure and free data flow between the United States and Europe.
    I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman. This is the Committee's second 
hearing on the topic of data moving across national borders. 
The digital movement of data affects consumers and businesses 
in both the United States and in Europe, and in every country 
of the world.
    The United States leads the world in technological 
innovation. It has exported over $380 billion worth of digital 
services in 2012. Meanwhile, Internet commerce grew threefold 
from 2011 to 2013 and is expected to reach $133 billion by 
2018. And the economic relationship between the United States 
and European Union is the strongest in the world.
    Since our December 2014 hearing on this issue, the big 
change is that the European Court of Justice invalidated the 
Safe Harbor agreement between the United States and the 
European Union that allowed American companies to transfer 
European users' information to the U.S. The elimination of the 
Safe Harbor has caused great uncertainty.
    However, as early as 2013, long before the Court's October 
2015 decision, the 15-year old agreement was under 
renegotiation. During this time, the U.S. and E.U. have been 
working hard to strengthen the privacy principles of the 
original agreement to ensure they cover the newest business 
models and data transfers that exist.
    Almost a year later, we today repeat our desire to see 
those negotiations completed. I urge the parties to quickly 
finalize a new agreement tailor-made for the modern economy and 
the modern consumer.
    A new agreement can and should improve consumer privacy and 
data security. Businesses can and should adhere to strong 
privacy principles from inception.
    Building trust with consumers worldwide requires a 
multifaceted approach through appropriate legislation and 
regulation, as well as through trade negotiations. Therefore, I 
also would urge this Congress to act by passing effective 
baseline privacy and data security protections. For the 
Internet of the future, economic gains and consumer protections 
go hand-in-hand. When consumers feel safe-that their personal 
information is protected-they do more business online.
    I hope that today's discussion, as well as the ongoing 
negotiations between the U.S. and E.U. will encourage a step in 
the right direction on data privacy not only for Europeans, but 
for American citizens as well. We can have innovation and 
protections for consumer privacy. We have done it time and time 
again. There is no reason why it should be different in this 
space than in any other.
    In today's heavily digital commercial environment, cross-
border data flows are not just a normal part of doing business, 
but essential to the American economy and American jobs.
    I welcome this opportunity to discuss the value of secure 
and free data flow between the United States and Europe.
    Thank you, I yield back.

    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman for his comments.
    This concludes Member opening statements. The chair would 
remind Members that pursuant to committee rules, all Members' 
opening statements will be made part of the record.
    And we do want to thank our witnesses for being here today, 
for taking time to testify before the subcommittee. You will 
each have an opportunity to give an opening statement. That 
will be followed by a round of questions from Members.
    Our panel for today's hearing will include Ms. Victoria 
Espinel, President and CEO of the Business Software Alliance; 
Mr. Joshua Meltzer, Senior Fellow for Global Economy and 
Development at the Brookings Institute; Mr. Marc Rotenberg, 
President of the Electronic Privacy Information Center; and Mr. 
John Murphy, Senior Vice President for International Policy at 
the United States Chamber Of Commerce.
    We appreciate all of you being here with us today. We will 
begin the panel with you, Ms. Espinel, and you are recognized 
for 5 minutes for a summary of your opening statement.

  STATEMENTS OF VICTORIA ESPINEL, PRESIDENT AND CEO, BUSINESS 
   SOFTWARE ALLIANCE; JOSHUA MELTZER, SENIOR FELLOW, GLOBAL 
 ECONOMY AND DEVELOPMENT, BROOKINGS INSTITUTE; MARC ROTENBERG, 
  PRESIDENT, ELECTRONIC PRIVACY INFORMATION CENTER; AND JOHN 
 MURPHY, SENIOR VICE PRESIDENT FOR INTERNATIONAL POLICY, U.S. 
                      CHAMBER OF COMMERCE

                 STATEMENT OF VICTORIA ESPINEL

    Ms. Espinel. Thank you very much.
    Good morning, Chairman Burgess and Ranking Member 
Schakowsky, Chairman Walden and Ranking Member Eshoo, and 
members of both subcommittees.
    My name is Victoria Espinel. Thank you for the opportunity 
to testify today on behalf of BSA, the software alliance. BSA 
is the leading advocate for the global software industry in the 
United States and around the world.
    While the 19th century was powered by steam and coal and 
the 20th century by electricity, cars, and computers, the 21st 
century runs on data. Today, data is at the core of nearly 
everything we touch. Banking, genome mapping, teaching our 
children, and safely getting home from work and back again, all 
run on data.
    And this data economy is a global phenomenon. People around 
the world are benefiting from data innovation. Accordingly, we 
recognize that, as we proceed, we must be diligent to ensure 
personal privacy is fully respected and robust security 
measures are in place to guard the data involved.
    Barriers to the free movement of data undermine the 
benefits of the data economy. Recent developments in Europe 
present a significant challenge that must be taken seriously 
and warrants immediate action. Last month, the European Court 
of Justice struck down the Safe Harbor. The Safe Harbor set out 
rules that enabled nearly 5,000 American companies to provide a 
huge array of data services to European enterprises and 
individuals. Companies abiding by the Safe Harbor rules could 
easily and efficiently transfer data to the U.S. consistent 
with E.U. law.
    The European Court of Justice decision upended this 
process. The uncertainty about international data flows created 
by the European Court of Justice's decision deters innovation 
and makes it much more difficult for our members to serve their 
millions of customers in Europe, which harms U.S. 
competitiveness.
    To address this, Congress and the U.S. Government should 
engage immediately and actively with their European 
counterparts to restore stability in transatlantic data flows. 
Specifically, we need three things. First, rapid consensus on a 
new agreement to replace the Safe Harbor; second, sufficient 
time to come into compliance with the new rules; and third, a 
framework in which the European Union and the United States can 
develop and agree on a sustainable long-term solution that 
reflects and advances the interests of all stakeholders.
    To the first point, fortunately, the United States and the 
E.U. were already deep in talks to revise the Safe Harbor 
agreement when the European Court of Justice issued its 
decision. And to this I want to join the chairman in thanking 
the Department of Commerce for all the hard work they have done 
on the negotiation far.
    The new version of the framework will include up-to-date 
safeguards. Updating the framework makes good sense. Much has 
changed since the Safe Harbor was first set up in the year 
2000. The volume of data is increasing exponentially. Here is 
an incredible fact: More than 90 percent of the data that 
exists in the world today was created in the last 2 years 
alone, and that is a rate of change that will continue to 
increase exponentially. The volume of business data worldwide 
is doubling every 15 months, so these negotiations must 
continue, and the new Safe Harbor must be finalized quickly.
    Second, even if there is consensus on a new agreement, as 
we believe there will be, companies will need an appropriate 
standstill period in which to adapt their operations to the new 
legal realities. An appropriate standstill period is essential 
to consumers on both sides of the Atlantic.
    And finally, while a new agreement to replace the Safe 
Harbor is a vital and immediate step, it is not the complete 
solution to the larger issue of privacy protections in the 
digital age. We urge Congress and the United States Government 
to look to the longer term.
    The European Court of Justice ruling set a standard of 
essential equivalence between privacy rules in Europe and the 
United States, in effect, a comparative analysis of our 
respective regimes. The European Court of Justice points most 
sharply at U.S. surveillance regimes put in place to protect 
our national security and their impact on individual privacy. 
Balancing these essential goals is a task this Congress has and 
will continue to consider. Most recently, the enactment of the 
USA Freedom Act is recognition that the balance is ever-
changing and laws must stay up-to-date.
    Ultimately, however, essential equivalence and the pursuit 
of protecting privacy in a changing world will be a dynamic 
concept that will change as laws and practices evolve. We need 
a framework that is sustainable over the long term. The 
original Safe Harbor lasted nearly 15 years. To achieve that 
sort of stability, we will need to develop a more enduring 
solution for data transfers.
    The United States and Europe are not as far apart on 
privacy as some might think. Where there are gaps span the 
Atlantic, whether perceived or actual, we can close those 
through a combination of dialogue and international 
commitments, and Congress will be a key part of enabling this 
to happen.
    Thank you again for providing this opportunity to share our 
views on these important matters, and I look forward to your 
questions.
    [The prepared statement of Ms. Espinel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentlelady.
    Dr. Meltzer, you are recognized 5 minutes for an opening 
statement, please.

                  STATEMENT OF JOSHUA MELTZER

    Mr. Meltzer. Chairman Burgess, Chairman Walden, Ranking 
Member Schakowsky, and Ranking Member Eshoo, honorable members 
of both committees, thank you for this opportunity to share my 
views with you on the Safe Harbor decision and the impacts for 
transatlantic data flows.
    Transatlantic data flows underpin and enable a significant 
amount of trade and investment where this concerns personal 
data of people in Europe and it is subject, therefore, to 
European privacy laws. The Safe Harbor framework has allowed 
personal data to be transferred from the E.U. to the U.S., but 
as a result of a recent decision of the European Court of 
Justice, the ability to do this has been called into serious 
question.
    I will briefly outline the link now between data flows and 
transatlantic trade and investment and discuss the potential 
implications of this European Court of Justice decision.
    As has been noted already, the U.S.-E.U. economic 
relationship is the most significant in the world. In 2014 
alone transatlantic trade was worth over $1 trillion. And would 
you also not forget the importance of the investment 
relationship with stock of investment in both jurisdictions is 
over $4 trillion.
    Data flows between the U.S. and the E.U. are also the 
largest globally, 55 percent larger than data flows between the 
U.S. and Asia alone. These data flows underpin and enable a 
significant amount of this bilateral economic relationship. 
Just to give you a couple of examples, businesses use internet 
platforms to reach customers in Europe. Internet access and the 
free flow of data supports global value chains, and data flows 
are essential when U.S. companies with subsidiaries in Europe 
manage production schedule and human rights and H.R. data.
    The global nature of the internet is also creating new 
opportunities for small and medium-sized enterprises to engage 
in international trade. For example, 95 percent of those SMEs 
in the U.S. who use eBay to sell goods and services to 
customers do so in more than four countries overseas. This 
compares with less than 5 percent of such businesses when they 
are exporting off-line. And this is obviously important as SMEs 
are the main drivers of job growth in the United States, 
accounting for 63 percent of net new private sector jobs since 
2002.
    Unfortunately, there is only limited quantitative data on 
the impact of the internet in cross-border data flows on 
international trade. If we focus on services that can be 
delivered online, in 2012 U.S. exported over 380 billion of 
such services, and over 140 billion of that went to the E.U.
    So E.U. privacy laws require entities that are collecting 
personal data to comply with privacy principles. And when 
transferring this personal data outside of the E.U., this can 
only be done under specific conditions. One of these is a 
finding from the European Commission that the receiving country 
provides an adequate level of privacy protection, which 
essentially requires that they have privacy laws equivalent to 
the E.U. There are other forms, models, contracts, and binding 
corporate rules, though these are not well utilized.
    The U.S. Safe Harbor framework has allowed for the transfer 
of personal data from the E.U. to the U.S., despite differences 
in approaches to privacy protection. In the recent Schrems 
decision, the European Court of Justice has effectively 
invalidated this mechanism for transferring personal data from 
the E.U. to the U.S.
    Now, in terms of its immediate impact of this decision, the 
European data privacy actors have said that they will wait 
until the end of January 2016 before enforcing Schrems. Since 
2014, there has been an effort to renegotiate Safe Harbor, and 
certainly one solution here would be for the newly renegotiated 
Safe Harbor agreement to address all the concerns that the 
European Court of Justice has outlined with the current Safe 
Harbor framework. However, until we know the outcome of these 
negotiations and, importantly, whether they are acceptable to 
the European Court of Justice, there will remain considerable 
legal uncertainty as to how transfers of personal data from the 
E.U. to the U.S. can continue.
    Failure to find a way for companies to transfer personal 
data to the U.S. can have significant economic repercussions, 
and these costs are likely to fall most heavily on small and 
medium-sized enterprises who lack the resources to navigate the 
complex legal issues and to manage the risk. In addition, some 
of the other mechanisms available for the transfer personal 
data to the U.S. such as binding corporate rules are often not 
available to small and medium-sized enterprises who do not have 
a corporate presence in the E.U.
    I appreciate the opportunity to offer my views on this 
important issue and look forward to your questions.
    [The prepared statement of Mr. Meltzer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentleman.
    Mr. Rotenberg, you are recognized for 5 minutes, please.

                  STATEMENT OF MARC ROTENBERG

    Mr. Rotenberg. Thank you, Mr. Chairman, Ranking Member 
Schakowsky, Chairman Walden, members of the committee. I 
appreciate the opportunity to testify today. My name is Marc 
Rotenberg. I am President of EPIC. I have also taught 
information privacy law at Georgetown for the past 25 years and 
study closely the developments of the European Union privacy 
system.
    I need to explain that the Safe Harbor framework from the 
outset raised concerns among experts, consumer organizations, 
and privacy officials, many of whom looked at the framework and 
saw a familiar set of principles but were concerned about the 
enforcement of those principles. Over the last several years, 
there have been repeated calls on both sides of the Atlantic to 
update and strengthen the Safe Harbor framework.
    In our comments to the Federal Trade Commission, we 
routinely ask the agency to incorporate strong privacy 
principles to give meaning to the Safe Harbor framework, but 
the agency was reluctant to do so. And so to us and others, the 
judgment of the European Court of Justice did not come as a 
surprise. The problems with Safe Harbor were familiar.
    But I should explain also this approach to data protection 
in Europe is familiar in the United States. The European 
regulators are trying to protect a consumer interest, which is 
data protection set out in a Charter of Fundamental Rights and 
attempting to hold foreign companies to the same standards that 
they would hold domestic companies. We do the same thing in the 
U.S. with product safety, consumer products, automobiles. 
Emissions standards, for example, must be equally enforced 
against foreign auto suppliers, as they are against U.S. firms, 
because U.S. firms should not have to carry a cost that foreign 
firms would not. This is essential to understanding the notion 
of essential equivalence in the judgment of the European Court 
of Justice.
    But another key point to make, which I set out in the 
testimony on pages 10 and 11, is the language in the Charter of 
Fundamental Rights. This is the European bill of rights, and 
they have set out both privacy and data protection as 
cornerstone rights within their legal system, one protecting 
the right to privacy and the other explicitly saying that 
everyone has the right to the protection of personal data. Such 
data must be processed fairly and such compliance must be 
ensured by an independent authority.
    Now, I know it would be tempting in the context of the 
current discussion to imagine that a Safe Harbor 2.0 could 
address the challenge that the European Court of Justice has 
set out, but my sense is that that approach will not be 
adequate because part of what the European Court of Justice has 
identified is also the concern shared by U.S. consumer groups, 
privacy experts, and others, that the U.S. has not updated its 
privacy law.
    The data not only on European citizens but also on U.S. 
citizens lacks adequate protection, and that is why in my 
testimony today I am strongly recommending that you consider 
long-overdue updates to domestic privacy law, that you not 
simply see this as a trade issue. I propose, for example, four 
specific steps I believe Congress could take that over the long 
term would solve not only the Safe Harbor problem but would be 
good for U.S. consumers and for U.S. business.
    Specifically, I think the Consumer Privacy Bill of Rights, 
which the President has proposed and reflects many privacy 
bills that have gone through this committee as a good starting 
point. I think updates to the U.S. Privacy Act would make a lot 
of sense. I know they are already under consideration by 
Congress. I think the creation of an independent data 
protection agency in the U.S. is long overdue and could help 
address concerns on both sides of the Atlantic. And finally, I 
think we do need an international framework to ensure 
transborder data flows not only between the E.U. and the U.S. 
but among all of our trading partners around the world because 
we are today in a global economy.
    Now, I know you may think this is just the view of perhaps 
privacy people or consumer groups, but I would like to share 
with you the views that have recently been expressed by leaders 
of the internet industry. It was Microsoft President Brad Smith 
who, after the decision of the European Court of Justice, said 
``privacy is a fundamental human right.'' It is Apple's CEO Tim 
Cook who said just 2 weeks ago on NPR ``privacy is a 
fundamental human right.'' These are the exact same words of 
the European Court of Justice. This is the view of U.S. 
consumer groups. I believe on both sides of the Atlantic there 
is consensus for the view that privacy is a fundamental right.
    Thank you.
    [The prepared statement of Mr. Rotenberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentleman.
    Mr. Murphy, you are recognized for 5 minutes, please.

                    STATEMENT OF JOHN MURPHY

    Mr. Murphy. Mr. Chairman, Ranking Member Schakowsky, 
distinguished members of the committee, it is an honor to 
appear before you this morning on behalf of the U.S. Chamber of 
Commerce, the Nation's largest business association 
representing companies of every size, sector, and state. And it 
is representing those companies that I would like to share my 
comments.
    We have spoken this morning about the importance of the 
international movement of data and how important it is to 
companies of all kinds. I can speak on behalf of this dynamic 
and multifaceted array of member companies to confirm that.
    Examples of data flows take many forms, including a small 
exporter operating through an e-commerce portal, a large 
company with operations in multiple countries managing its 
human resources, a wind turbine sending data on its performance 
to the engineers who keep it running, or a transatlantic 
tourist using a credit card. In short, today's hearing isn't 
really just about internet companies but about companies. It 
isn't about the internet economy; it is about the economy.
    However, as we have heard, the tremendous benefits of 
transatlantic data flows are now at risk. The invalidation of 
the Safe Harbor agreement raises serious questions. I would 
point out that before its decision, the European Court of 
Justice did not conduct any formal investigation into U.S. 
current surveillance oversight. In fact, the decision was based 
largely on process concerns internal to the European Union.
    Even so, more than 4,000 companies have been left asking 
whether they can continue to transfer personal data from 
Europe. They are now faced with the tough choice of deciding 
whether to continue their transatlantic business or face 
potentially costly enforcement actions.
    While companies in the Safe Harbor program continue to 
guarantee a high level of data protection for the users of 
their products and services, alternatives cannot be devised 
overnight. Data privacy systems are complex legally and 
technically. One alternative suggested by the European 
Commission, binding corporate rules, can cost over $1 million 
and take at least 18 months to develop and implement. This is a 
nonstarter for small businesses.
    Or consider a U.S. hotel chain with locations across 
Europe, each of which works with a host of small businesses 
that might provide food for their in-house restaurant or 
janitorial services. All of those relationships involve data 
flows, and that means there are hundreds of arrangements across 
hundreds of properties that may need to change at considerable 
cost.
    Another example comes from the auto industry, which uses 
Safe Harbor to identify vehicle safety issues and for quality 
and development purposes. However, the industry now faces the 
challenge of meeting both U.S. and E.U. regulatory 
requirements, which made diverge. Under U.S. law, auto 
manufacturers must share a vehicle identification numbers of 
cars sold globally in the event of a vehicle service campaign 
such as a recall. This U.S. obligation may now conflict with 
E.U. privacy rules.
    So what is the outlook? Companies may be faced with a 
patchwork of 28 different enforcement and compliance regimes in 
different E.U. member states or more where local governments 
are involved. There is a serious disconnect between the E.U.'s 
stated goals of spurring innovation and fostering a startup 
culture and statements by some European officials about the 
need for IT independence and calls for data localization.
    Further, some in Europe are trying to use legitimate 
concerns about data protection as an excuse for protectionism, 
and the uncertainty facing business worsens. This approach has 
been frequently rebuked by many others in the E.U., but it 
merits careful scrutiny.
    While the business community is committed to working with 
our European colleagues to ensure a balanced and proportionate 
system of rules, we must be vigilant. We must ensure that the 
European Union does not hold the United States to a different 
standard on national security and law enforcement issues.
    Specifically, what should be done? First, we need a new and 
improved Safe Harbor agreement that reflects current 
circumstances. The Chamber greatly appreciates the efforts of 
the Department of Commerce and the FTC to provide clarity and 
reach an agreement on a revised Safe Harbor. Further, we 
applaud the House for taking an important first step toward 
resolving related concerns with the passage of the Judicial 
Redress Act, and we are encouraging the Senate to act swiftly 
to give this bill final passage.
    The recently announced Umbrella Agreement is also another 
important step forward allowing data sharing in certain 
circumstances between law enforcement and national security 
agencies. Also important are other safeguards instituted in the 
United States in recent years that provide a level of 
protection equivalent to or even greater than that found in the 
European Union and among its member states.
    The Chamber appreciates the opportunity to provide these 
comments to the committee, and we stand ready to assist in any 
way possible to ensure data flows can continue across the 
Atlantic.
    [The prepared statement of Mr. Murphy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentleman for his 
testimony, and thank all of you for your being here this 
morning and sharing your thoughts with us. We are going to move 
into the question part of the hearing, and I am going to begin 
by recognizing Mr. Walden 5 minutes for his questions, please.
    Mr. Walden. I thank the chairman, and I thank all of you 
for your testimony. It is most enlightening and helpful as we 
wrestle with this issue ourselves.
    Ms. Espinel and Mr. Murphy, do you think the Department of 
Commerce needs to be doing anything differently to arrive at 
Safe Harbor framework that will stand up to scrutiny by the 
European legal system, and if so, what would that be?
    Ms. Espinel. So I would say, first, I want to thank the 
Department of Commerce for all the work they have been doing in 
negotiating the Safe Harbor. And our understanding is that 
talks are well underway and we are at the moment cautiously 
optimistic that we will be able--we meaning the United States 
and the European Union--will be able to find our way to a new 
Safe Harbor agreement.
    And so on that I think the Department of Commerce is doing 
all that they can. I would continue to urge Congress to 
encourage the Department of Commerce to focus on that, and also 
to the extent you are speaking to your European counterparts, 
to encourage the Europeans to come to a speedy conclusion on a 
new Safe Harbor agreement.
    But I would also say that a new Safe Harbor agreement, 
while I think it is the immediate short-term step that we need, 
it will not solve the larger issue. And so I think we need to 
focus first and foremost at the moment on resolution of the new 
Safe Harbor agreement, but I think we need to quickly turn to 
coming up with a longer-term, more sustainable, global solution 
for data transfers. And that is something that we would like to 
be working with Congress on and will be working closely with 
the Department of Commerce, the FTC, as well as the governments 
of the European Union and the European Commission.
    Mr. Walden. All right. Mr. Murphy?
    Mr. Murphy. I would agree with those comments. Just 
briefly, the Department of Commerce has made every effort to 
get ahead of this problem. In fact, before the European Court 
of Justice decision had advanced significantly towards reaching 
a new agreement, obviously further negotiations were required 
after the ruling came out to reflect those findings. But they 
have done a good job, and they have done a good job reaching 
out to the business community to gather their input as well.
    Mr. Walden. OK. Dr. Meltzer, what impacts will continuing 
uncertainty around transatlantic data flows have on foreign 
direct investment both in the United States and the European 
Union from your perspective?
    Mr. Meltzer. Thank you for the question. I think it is 
important to recognize that the implications of the Schrems 
decision at the moment are going to be direct on those who are 
certified under the Safe Harbor framework, but the implications 
are potentially a lot more significant. We already see in the 
E.U., for instance, that some of the data protection 
authorities in Germany have effectively stated that the other 
mechanisms that the E.U. has for transferring data--namely, 
standard model contracts and binding corporate rules 
themselves--are likely to be available for transferring 
personal data to the E.U.
    So effectively, there is enormous legal uncertainty around 
the whole process and available options for making this to 
happen. So one would expect that, for the moment, all forms of 
foreign investment that essentially are relying on 
incorporating the transfer of personal data are going to have 
to be reviewing their processes, and a lot of investment 
decisions and trade is going to be placed under that sort of 
higher level of risk and uncertainty for the time being.
    Mr. Walden. And I noted in some of the testimony, too, it 
is not just the E.U. anymore. I mean, other countries are 
looking at this, what the E.U. has concluded, and now they are 
starting to question whether their own Safe Harbor agreements 
were correct. And somebody tell me how this is spreading and 
what we need to be cognizant of going outward. Mr. Rotenberg?
    Mr. Rotenberg. Thank you, Mr. Walden. I do discuss in my 
prepared statement efforts that actually preceded the judgment 
of the European Court in Canada, in Japan, in South Korea, and 
part of the point that I am trying to make today is that this 
is not simply a matter of trade policy. In other words, where 
countries have established fundamental rights, they will see a 
need to protect those rights.
    And the second part of the Schrems decision doesn't just 
invalidate Safe Harbor. It says that each one of the national 
data protection agencies has the authority to enforce 
fundamental rights, which means even in agreements between the 
Department of Commerce and the Commission could be challenged 
by a member country.
    Ms. Espinel. But if I could just add briefly----
    Mr. Walden. Please do.
    Ms. Espinel [continuing]. There are a number of countries 
around the world that are looking to put or considering putting 
trade barriers in place to restrict the movement of data across 
national borders for a variety of reasons. This is a fight that 
we have been fighting for at least 5 years now market to market 
around the world. I think one of the recent inventories of 
countries that are considering put the number at 18, including 
significant trading partners such as China but also Russia, 
Nigeria, and a number of other trading partners.
    So while the subject of this hearing is the U.S.-E.U. Safe 
Harbor, and that is a subject of great concern to us, there is 
a larger issue here, I think, about setting up a global 
framework that allows data to move freely around the world 
beyond just the United States and Europe.
    Mr. Walden. Thank you. My time is expired.
    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman for his questions.
    The Chair recognizes the gentlelady from Illinois, the 
ranking member of the Subcommittee on Commerce, Manufacturing, 
and Trade, 5 minutes for questions, please.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    It has been reported that the Department of Commerce and 
the European Union have agreed, at least in broad strokes, on a 
replacement for Safe Harbor. And like you, I support passage of 
a comprehensive privacy bill and a comprehensive data security 
bill. However, I also hope that the new deal for Safe Harbor 
can be reached soon and that it will contain significant 
protections for consumers.
    Mr. Rotenberg, in answering the following, please put aside 
your call for changes to domestic law for a moment. I will ask 
you that question a bit later. But in your opinion, what should 
be in the new agreement if there is to be a new agreement to 
afford consumers stronger privacy protections?
    Mr. Rotenberg. It is a difficult question to answer. There 
are 13 specific proposals that were presented by the European 
Commission to the Department of Commerce, and the Department of 
Commerce and FTC has tried in this negotiation to address the 
issues that have been raised.
    But the reason that it is a difficult question to answer, 
as other witnesses have pointed out, is that neither the 
Commerce Department nor the FTC has legal authority over the 
surveillance activities undertaken by police or intelligence 
agencies in the United States. And you could say that is kind 
of a deal-breaker on the European side because it is explicit 
in the opinion of the Court of Justice that there must be legal 
authority to restrict that type of mass surveillance.
    And I won't go into that debate right now, but the question 
that you have asked, which is how do you solve the issues that 
have been identified post-ruling in the Safe Harbor 
negotiation, I actually don't think there is an answer to. And 
this even puts aside my recommendation for changes in domestic 
law. I think that is the reality on the European side as they 
look at next steps in this process. So in your recommendations 
for changes in the domestic law, you aren't looking at the 
issue of government surveillance?
     Mr. Rotenberg. Well, certainly, yes. I mean the Freedom 
Act was a significant step forward for privacy protection in 
the United States, but it limited only the surveillance 
activities directed toward U.S. persons. That is the 215 
collection program. The Freedom Act did not address the 702 
program, which was collection directed toward non-U.S. persons. 
And that remains a key concern on the E.U. side. And I don't 
think that the Department of Commerce can negotiate that in the 
context of a Safe Harbor 2.0. So at a minimum I think that 
would have to be done to comply with the judgment of the court.
    Ms. Schakowsky. So there have been various press accounts, 
and of course, the terms of the new agreement have not been 
made public, but are there certain provisions that you do 
consider helpful? For example, we have heard that there will be 
increased transparency. Is that something that you think they--
--
    Mr. Rotenberg. Well, it would be good, but to be fair, in 
the original Safe Harbor proposal, which we were involved with, 
we actually favored the principles. We said these are familiar 
principles. They exist both on the U.S. side and on the 
European side, and they seem like a good basis to promote 
transborder data flows. We were not against the principles in 
the original Safe Harbor, but the problem was the lack of 
enforcement.
    And you see the lack-of-enforcement issue continues even in 
the Safe Harbor 2.0 because unless Federal Trade Commission or, 
as I have proposed, an independent data protection agency, has 
the authority to enforce those principles, it won't have a 
significant impact on how it is viewed on the European side.
    But I agree. I think the steps are in the right direction, 
but they don't solve the enforcement problem.
    Ms. Schakowsky. In April, Mr. Rush, Congressman Rush and I 
offered an amendment in the nature of a substitute to the Data 
Security and Breach Notification Act that would require 
commercial entities that owned or possessed consumers' personal 
information to create and implement security procedures to 
safeguard that data, among other things. Those procedures would 
have to include processes for identifying, preventing, and 
correcting security vulnerabilities. Is this important in 
domestic----
    Mr. Rotenberg. Yes, actually, I think that is a very 
important proposal. Because there is increasing awareness on 
both sides of the Atlantic of the need for data breach 
notification, the Europeans have recently updated their law in 
part in response to developments that have taken place in U.S. 
law. And I think your proposal would carry that process forward 
in a way that is favorable again for consumers and businesses. 
I don't think this is a process that puts consumers against 
business. I think we are all on the same page wanting to 
maintain transborder data flows. So to the extent that these 
changes help strengthen consumer confidence, I think it is a 
step in the right direction.
    Ms. Schakowsky. Thank you. I would like to have further 
conversations with you at another time. Thank you very much. I 
yield back.
    Mr. Burgess. The chair thanks the gentlelady, and the chair 
will recognize himself 5 minutes for questions.
    Dr. Meltzer, you have indicated in your testimony that 
cross-border data flows affect small and medium-sized business. 
Can you give us an idea as to what that effect is?
    Mr. Meltzer. So the effect is in multiple ways. I apologize 
for some generality. As I mentioned in my opening statement, 
there is unfortunately a paucity of very high data on this 
issue. EBay, I mentioned, has been particularly helpful in 
providing data about the way that small businesses export on 
its platform, and I think it is a good example because it 
captures a lot of the ways that small businesses are using the 
internet to access customers globally, and that is certainly 
the case when it comes to transatlantic trade. And so there is 
one example where there is a lot of new opportunities for 
engagement in the global economy by small businesses that 
really was not possible before that relies on cross-border data 
flows.
    We will have a component of that, which is certainly 
personal data, which is going to be significantly potentially 
inhibited by the ruling in the Schrems decision. And as I think 
has been mentioned before, this is an issue which is 
transatlantic-specific but is global in its implications.
     One of the things I think is worth recognizing is also 
that there is essentially a global debate going on about the 
appropriate form of privacy model protection going forward. 
There is the U.S. version, which is essentially embodying the 
APEC cross-border privacy principles, and there is the E.U. 
approach, and both models are being discussed in different form 
globally. and different countries are looking at different 
approaches, and which way they go will have a significant 
impact on how small businesses operate not only on a 
transatlantic basis but how they use the internet to leverage 
and engage globally in all countries around the world.
    Mr. Burgess. Well, along those lines then, the benefits 
that occur to small and medium-sized enterprises, they are not 
unique to the United States-European Union relationship?
    Mr. Meltzer. No, absolutely not. And in many respects the 
opportunities for small and medium-sized enterprises are as 
real here as they are in Europe, as they are actually in a 
range of other countries, including specifically developing 
countries, which have been be able to engage in international 
trade in a way that was not possible. So the potential 
implications of this are much broader than the transatlantic 
nature, are certainly broader than for the SME sector here in 
the U.S., but certainly globally.
    Mr. Burgess. Thank you, and I thank you for those answers.
    Mr. Murphy, the Chamber of Commerce obviously represents a 
broad range of interests across the country. Can you give us a 
sense what you are hearing from your members, how important it 
is that the United States and European Union reach a new 
agreement on a new Safe Harbor?
    Mr. Murphy. Well, it is indispensable to U.S.-E.U. economic 
relationship. It is without peer in the world today. And, as I 
think several members of the committee have pointed out, 
bilateral trade is $1 trillion annually, but that doesn't even 
capture the additional $5 trillion in sales by U.S. affiliates 
in Europe or European affiliates in the United States. There is 
no relationship like that. U.S. investment in Europe is 40 
times what U.S. companies have invested directly in China. So 
getting this right matters for all kinds of companies.
    I think for small businesses, they are just waking up to 
it. Dr. Meltzer's comments about eBay and the large number of 
companies that use that platform as exporters and the 
uncertainty about what that would mean for them.
    But I think that there are potential hidden costs for many 
small businesses as well. For instance, I gave my example about 
a hotel chain operating in Europe and the many small businesses 
which provide services to that hotel. Certainly, many of them 
have never thought about this. In the absence of a revised Safe 
Harbor agreement, companies may face an incentive to bring that 
kind of work in-house, and that could be very damaging for 
small businesses going forward.
    Mr. Burgess. So what is the current state of risk for your 
members, and then, further, is that level of risk sustainable 
for them?
    Mr. Murphy. I think that we are going through a bit of a 
state of shock here in the wake of the ruling. There was a wide 
expectation that the ruling might be in some way adverse. I 
think the full dimensions of it were not fully appreciated in 
advance. So there is a circling of the wagons right now to try 
and work with the authorities to find a solution in the near 
term.
    I do agree with Ms. Espinel, though, that this is an issue 
that even in the happy event that we are able to achieve in the 
next weeks or couple of months a new Safe Harbor agreement, 
this issue is going to require constant attention to get it 
right on a global level.
    Mr. Burgess. And thank you for your responses.
    The chair yields back and recognizes Mr. McNerney 5 minutes 
for questions, please.
    Mr. McNerney. I thank the chair and I thank the witnesses, 
very interesting hearing this morning.
    Mr. Rotenberg, in my mind there is a significant 
distinction between government surveillance on the one hand and 
data breach from non-state actors, businesses, or so on on the 
other hand that are trying to get information that they 
shouldn't have. Which do you feel is more significant in the 
Schrems decision?
    Mr. Rotenberg. Well, the Schrems decision looks primarily 
at a commercial trade framework, which is what Safe Harbor was, 
and concludes that that trade framework did not meet the 
adequacy requirement of European law. So in that respect I 
guess you could say it is commercial. But you see, from the 
European perspective, because privacy is a fundamental right, 
the question of who gets access to it in some respects is not 
as significant. It is the underlying privacy interest. So both 
will remain important. The European privacy officials will look 
to whether the personal data that is being collected is used 
for impermissible reasons either on the commercial side or on 
the intelligence side.
    Mr. McNerney. Have you been keeping up with the exceptional 
access question here in the United States?
    Mr. Rotenberg. I am not sure if I understand the question.
    Mr. McNerney. Well, the FBI and other organizations want to 
have an encryption key----
    Mr. Rotenberg. Right.
    Mr. McNerney [continuing]. That is accessible to them so 
they can look at data with proper provisions. Do you think that 
that would hurt our businesses?
    Mr. Rotenberg. Well, I certainly think that would be a 
mistake. I understand the Bureau's concern. We have had this 
discussion for many, many years. At the risk, of course, of the 
so-called key escrow approach to encryption is that you leave 
systems vulnerable to----
    Mr. McNerney. Right.
    Mr. Rotenberg [continuing]. Cyber criminals. In the best of 
circumstances you can execute your lawful investigation, but we 
know from experience there are many other scenarios, and those 
weaknesses will be exploited.
    Mr. McNerney. Well, what are some of the differences in 
between data protection in the U.S. and data protection in 
Europe?
    Mr. Rotenberg. Well, I actually think there is much more 
similarity between the two approaches than people commonly 
think. The European Union privacy law mirrors many of our own 
privacy laws, our Fair Credit Reporting Act, our Privacy Act. 
All of these U.S. laws have many of the same principles that 
the Europeans do. The difference, I think, is that we have not 
updated our laws as the Europeans have, so the divide that you 
are seeing today is really not one about disagreement as to 
what privacy protection means. It is really divide over the 
scope of application.
    Mr. McNerney. Thank you. One more question for you. Do you 
have specific recommendations then for data privacy? It sounds 
like what you are saying is that we really should be more 
proactive in terms of keeping up----
    Mr. Rotenberg. Yes----
    Mr. McNerney [continuing]. With the scope of the problem.
    Mr. Rotenberg. I think we should update our national law. 
Again, it is obvious there is no benefit to consumers to see 
the disruption of transborder data flows. Everyone wants to 
ensure that the data flows continue. But we also know that the 
weaknesses in U.S. privacy protections will continue even with 
a new Safe Harbor. So there has to be within the United States 
an effort to update our privacy law, I believe.
    Mr. McNerney. Thank you. Ms. Espinel, will American service 
members stationed in Europe be able to communicate as easily 
with their loved ones here in the United States absent Safe 
Harbor?
    Ms. Espinel. That is an excellent question, and I think, 
you know, there are clearly going to be a number of impacts, 
and I am happy to speak to those. I think we don't know today 
what the full extent of those impacts will be, but 
communication between the United States and Europe, I think, is 
clearly one of the things that could be implicated, among a 
number of other things as well.
    Mr. McNerney. Well, how can U.S. companies ensure that our 
service members are not cut off from their families?
    Ms. Espinel. So I would say there are three things that we 
need to happen. The first is one that we have talked about 
already today, which is that we need to come to a new 
resolution for the Safe Harbor. So that is sort of a first 
immediate step. The United States and Europe need to come 
together to agree on a new Safe Harbor.
    The second thing that we need is we need some appropriate 
amount of time for U.S. companies to be able to come into 
compliance with those new regulations. And then, as we have 
been discussing today, we need to be actively working on what a 
long-term, sustainable solution is going to be. I think we are 
all in agreement that while it is enormously important to come 
to a new agreement on the Safe Harbor as quickly as possible, 
that will not be our long-term solution and we need to be 
working together on a long-term, sustainable solution.
    Mr. McNerney. So you pivoted back to your opening remarks, 
then, on the three things that we need to do?
    Ms. Espinel. I think those are the three things that we 
need to keep a laser focus on.
    Mr. McNerney. Thank you. Mr. Chairman, I yield back.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the gentlelady from Tennessee, Mrs. 
Blackburn, 5 minutes for questions, please.
     Mrs. Blackburn. Thank you so much, Mr. Chairman, and thank 
you all for answering the questions and being right to the 
point. We appreciate that.
    Mr. Meltzer, I wanted to come to you. Your October 2014 
working paper on transatlantic data flows, some great stats in 
there and they really cause you to think when you look at the 
worth of the digitally exported services and how that does 
affect our trade. So thank you for that and for making that 
available.
    I want to go back to something Chairman Burgess was 
beginning to push on a little bit, the short- and long-term 
consequences as we look at solidifying a Safe Harbor framework. 
And back to the issue of U.S. businesses, whether they are 
large or small, and let's talk about between now and January 
2016 and what the impact is going to be as you have got that 
Article 29 Working Party trying to finalize the Safe Harbor 
agreement. So I would like to hear from you, just let's narrow 
this focus down and look at these businesses between now and 
January 2016. We know the volume that is being exported and 
look at what you think the impact is going to be and then what 
consequences do you see arising if a new Safe Harbor agreement 
is unable to be finalized.
    Mr. Meltzer. Yes, thank you for that question. So to the 
first part, assuming that the data protection authorities, all 
of them, speak to the commitment not to enforce the Schrems 
decision until the end of January 2016, then we are presumably 
still in a reasonable status quo environment and data flows 
should continue, though under a certain amount of increased 
uncertainty.
    Post-January, the question is going to be whether Safe 
Harbor has been concluded. But as I think the witnesses have 
said, I think even with conclusion of Safe Harbor, it is still 
ultimately going to be a question of whether the satisfies the 
European Court of Justice, and these will most likely have to 
be ultimately settled again by the European Court of Justice 
because the data protection authorities have been given the 
clear authority to investigate complaints regarding adequacy of 
data flows. So I would imagine a situation even after concluded 
Safe Harbor 2.0 where you still get data protection authorities 
looking into whether in fact there is adequacy. So this is 
certainly going to increase the risk environment.
    Stepping back a little bit, I think that there is clearly a 
significant interest on the U.S. side to make sure that this is 
resolved. I think this is an equally important interest on the 
E.U. side to resolve this issue as well. The costs to the E.U. 
economy are also going to be very significant if they don't 
manage to resolve this transborder data flow issue. So I think 
those two dynamics give me some hope that a solution is going 
to be found, but a number of steps, I think, are going to have 
to be taken before that is going to be clear.
    Mrs. Blackburn. OK. Ms. Espinel, do you think they will 
reach an agreement, and what do you see as the stumbling 
blocks?
    Ms. Espinel. We are, as I said, confident, strongly 
cautiously optimistic that the Department of Commerce and the 
European Union will be able to come to an agreement. All 
indications are that the discussions are going well. And as Dr. 
Meltzer pointed out, there are very strong interests on both 
sides of the Atlantic to coming to an agreement.
    So, while not wanting to diminish the difficulties inherent 
in that, we do believe that they will come to an agreement in 
the short-term, although I feel duty-bound to emphasize that we 
also believe that the short-term agreement will not be the end 
of this discussion, that we will need to come up with a long-
term solution, both to serve the interests of larger companies 
but also to serve the interests of the many small and medium-
sized businesses that are affected by this and the millions of 
customers on both sides of the Atlantic that are affected.
    Mrs. Blackburn. Thank you. I am out of time, but I am going 
to submit a question for answer dealing with transfer rights, 
which I think is something that we probably should be having a 
discussion on also.
    So I will yield back.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair recognizes the gentlelady from New York, Ms. 
Clarke, 5 minutes for questions, please.
    Ms. Clarke. I thank the chairman, Mr. Burgess, and I thank 
our witnesses for their testimony this morning.
    Ms. Espinel, we know that big companies will likely be able 
to use their legal and technical solutions to get by without 
Safe Harbor, but what about small businesses? And do small 
businesses have the resources and expertise necessary to 
implement alternatives?
    Ms. Espinel. So that is a fantastic question, and as has 
been pointed out earlier in this hearing, most of the companies 
that are affected by the Safe Harbor are small and medium 
companies. There are two different aspects of this. One way, 
obviously, to try to deal with this is to build data centers 
around the world. That is a solution that is out of reach to 
all but the very largest of companies around the world. It is 
also a very inefficient way to do remote computing and data 
analytics. And in fact, it is not only inefficient, it is 
impossible if information is siloed in different locations. So 
that is not an option for the smaller companies.
    And the difficulties of living in a world where there is a 
patchwork of regulations is even harder for smaller companies 
to deal with. It is no picnic for the larger companies to be 
sure, but I think it is impossible for smaller companies. And I 
think one of the things that it does is there are enormous 
efficiencies from remote computing, from cloud computing, from 
data analytics that benefit big companies, but they also 
benefit small companies, in some ways even more. As Chairman 
Walden said, 75 percent of the value-add there is to 
traditional industries, and there are many small companies 
across all economic sectors that are affected by this. And 
putting a shadow over what are still relatively nascent 
industries, cloud computing and the data analytics at this 
point, I think it is hard to actually measure what the negative 
impact of that would be going forward.
    Ms. Clarke. So if you were to advise small companies, given 
what we know right now in the negotiations, what sort of 
infrastructure or construct would you advise these smaller 
companies to begin looking at?
    Ms. Espinel. So, as I said, some options are just 
completely out of the reach of small companies. I think what 
the small companies need is in line with what we would 
recommend generally. We all of us need to have a new Safe 
Harbor agreement in place. We all of us need some appropriate 
amount of time to come into compliance with those new 
regulations. And then we all need a long-term solution that is 
going to work. And that long-term solution, I think, needs to 
have at least three aspects to it. One, we talked a lot about 
the importance of privacy. I think it is important that 
whatever long-term solution there is it provides that a 
person's personal data will attract the same level of 
protection as it moves across borders.
    We need to have a solution that will allow law enforcement 
to do the job that it needs to do and protect citizens around 
the world, and we need to have a solution that will reduce the 
amount of legal uncertainty that exists right now, not just for 
big companies but for small companies as well.
    Ms. Clarke. So, Mr. Murphy, given the Safe Harbor ruling's 
impact on small businesses, are your organizations doing 
anything to ensure that small businesses have the 
understanding, expertise, resources necessary to continue their 
business operations without a Safe Harbor agreement?
    Mr. Murphy. Well, at present, the circumstances don't 
really provide workable alternatives. As I mentioned in my 
testimony, the European Commission, in the wake of the ruling 
by the European Court of Justice, indicated that one valid 
alternative is to use what is called binding corporate rules. 
But as Cam Kerry, the former general counsel at the Department 
of Commerce has pointed out, implementing these can cost $1 
million and can take 18 months. This is completely out of the 
reach of most of our small business members. While larger 
companies may be able to move in some cases to adopt such an 
approach, there is really no alternative for the small 
companies to revise Safe Harbor agreement.
    Ms. Clarke. Have any of you panelists--I only have a few 
seconds left--given any thought to sort of the nuance that has 
to be an agreement that would address the concerns of small 
business in our country?
    Mr. Rotenberg. What we haven't discussed is the role of 
innovation in the internet economy. And our view is that 
privacy rules would actually encourage innovation, particularly 
with small firms. And what I have in mind is to the extent that 
small and medium enterprises can develop their services in way 
that minimizes the privacy risk, it also reduces the regulatory 
burden, because what happens when people look closely at these 
data protection assessments, they ask what kind of data is 
being collected? Is the credit card information secure? Do you 
need the Social Security number? I think small businesses can 
actually compete in this space by coming up with business 
practices that are actually modeled practices for privacy 
protection. That is what I would recommend.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair recognizes the gentleman from Texas, the chairman 
emeritus, Mr. Barton, 5 minutes for questions, please.
    Mr. Barton. I want to thank both chairmen for this joint 
hearing, and it is a very important topic.
    I am in a little bit of a dilemma. I am the long-term co-
chairman of the Congressional House Privacy Caucus, and I am 
also a pro-business Republican, so if I put my pro-business hat 
on, I want to renegotiate this Safe Harbor agreement as quickly 
as possible with as little muss and fuss as possible. But if I 
put my privacy caucus co-chairman hat on, I think the European 
Union has highlighted a substantial issue, and that the U.S. 
privacy laws aren't as strong as they could be and that people 
like me think they should be.
    So I guess my first question to Mr. Rotenberg would be what 
is the primary difference between the European Union privacy 
protections for their citizens and the privacy protection 
currently under law here in the United States?
    Mr. Rotenberg. Well, first of all, Mr. Barton, I actually 
wanted to thank you for all of your work as a pro-business 
Republican in support of consumer privacy. I think you help 
demonstrate that in this country privacy is actually a 
bipartisan issue, and it is compatible with business.
    But I think the point you make is also critical, which is 
that the Europeans have brought attention to areas of U.S. 
privacy law where we have more work to do. We have a good 
framework. Our Privacy Act of '74 is a good law, our Fair 
Credit Reporting Act of 1970 is a good law, but these are old 
laws. They have not been updated. We really haven't thought yet 
about biometric identification, genetic data, facial 
recognition, secretive profiling of consumers. These are real 
issues. And the Europeans have spent the last decade trying to 
understand how to protect privacy while promoting innovation.
    So my answer is I think we should continue down the road, 
which we actually started in the U.S., which is protecting 
privacy in law, but keep moving forward. I think the European 
decision provides that opportunity.
    Mr. Barton. Under the current negotiations that are going 
on between the U.S. and the European Union to come up with a 
new Safe Harbor agreement, does the U.S. delegation have the 
authority to make substantive changes in U.S. policy, or are we 
trying to finesse the substantive disagreement and come up with 
just a better administrative solution?
    Mr. Rotenberg. I think it will ultimately be for Congress 
to make the changes in U.S. law that are necessary to provide 
adequate protection not only for the European customers of U.S. 
businesses but also for the U.S. customers of U.S. businesses.
    Mr. Barton. Mr. Murphy, do you agree with that?
    Mr. Murphy. Our read of the ruling of the European Court of 
Justice is that it was fundamentally a federalism issue within 
Europe having to do with the role of the European Commission on 
privacy versus the role of the data protection agencies in the 
28 member states. And to a significant degree the renegotiation 
of the Safe Harbor reflects their need to reorganize how they 
address privacy and the dissatisfaction with how it was handled 
by the Commission.
    That is a complex process. Federalism is always 
complicated. I don't have to tell a Member of Congress. But the 
ruling itself was more process-related and about those issues 
than it was about U.S. privacy protection. After all, there was 
no comprehensive examination of U.S. privacy law in the context 
of the European Court of Justice ruling.
    Mr. Barton. Mr. Chairman, it is rare that there is not a 
silver lining in every issue, and this is an example of where 
in the short term we want to work with our negotiators to solve 
this problem because small businesses and large businesses all 
over the United States need access to the European market and 
need to be able to transfer data and information seamlessly 
back and forth. But in the somewhat longer term, perhaps it 
will give impetus to this committee and the Congress to address 
some of the fundamental issues and hopefully come up with 
stronger privacy protections for our citizens.
    And with that, Mr. Chairman, I yield back.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentlelady from California, Ms. 
Eshoo, 5 minutes for questions, please.
    Ms. Eshoo. Thank you, Mr. Chairman. And I apologize to the 
witnesses that I had to step out. There is a memorial service 
for I just think one of the greatest individuals that ever 
served in the Congress, the late Congressman Don Edwards. So I 
hope that the questions that I ask haven't already been asked. 
If they have been, it is because I had to step out.
    First of all, Mr. Chairman, I would like to ask for 
unanimous consent to submit for the record a November 3 letter 
from the Internet Association to the chairs and the ranking 
members of C&T and CMT subcommittees.
    Mr. Burgess. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Eshoo. And I thank you for that.
    I mentioned in my opening statement what I think is a major 
issue in this on the part of the E.U., and that is what type of 
access the European data and American intelligence agencies, 
you know, what should be given over because there is a very, 
very large issue. I mean it is like right under the sheets, and 
that is that--well, you all know what has taken place relative 
to the surveillance and what was carried in the mainstream 
press where American companies, products were stopped from 
being shipped, things were inserted in those products, 
repackaged, and sent off. Now, that is, I believe and others 
believe, really damaging to the brand American product. And the 
Europeans are deeply suspicious of that.
    So, first of all, what I would like to ask you is how would 
you handle that with the E.U.? Do you believe that there should 
be an adjustment on the part of our country because this is a 
big concern of theirs? And if so, how so? So just go quickly so 
I just get a flavor from each one of you what your thinking is 
on this issue.
    Ms. Espinel. So I would just say quickly that is clearly 
something that the opinion focused on as well. I think we need 
to--and that is why we have been focusing on we need a short-
term solution but we also need a long-term solution because we 
know that negotiation of Safe Harbor will not address all of 
the larger issues, including that one.
    USA Freedom Act I think was a good example of our Congress 
being able to balance privacy and national security, so we 
would be looking to work with Congress on this issue in the 
future, and we are confident that that----
    Ms. Eshoo. Do you think that the Europeans----
    Ms. Espinel [continuing]. Balance can be found.
    Ms. Eshoo [continuing]. Understand the steps that we took 
very well? Or do you know of those conversations having taken 
place so that the knowledge is deeper and broader? I don't 
think we cured everything, must frankly. We really never do 
because you have to develop consensus, and these are tough 
issues.
    Ms. Espinel. So I think that is a fantastic point, and I 
think one of the things that we really need is to have a 
political environment that is cooperative and constructive. And 
so one of the things that I would respectfully urge Congress to 
do, when you are talking to your counterparts in the European 
Union, that I would urge the Administration to do that we can 
do as well is to help the Europeans understand our privacy 
system better, including some of the recent improvements like 
the USA Freedom Act.
    I take this opportunity to thank you all for voting for the 
Judicial Redress Act and hope that the Senate follows your 
leadership on that.
    Ms. Eshoo. Great. Let me just get one more in to you and to 
others. This weekend, the CEO and cofounder of Virtru authored 
an op-ed in VentureBeat in which he suggested that encryption 
and anonymization are ways to adapt to the E.U.'s new data 
rules. Do you agree? Do you disagree? Do you think it is 
helpful? Do you think that it will----
    Mr. Rotenberg. This is almost exactly----
    Ms. Eshoo [continuing]. Serve our interests?
    Mr. Rotenberg. Yes, this is almost exactly the point I was 
making to Congresswoman Clarke. I actually think both of those 
techniques, encryption and anonymization, provide an 
opportunity for internet-based businesses to minimize their 
privacy burdens. I think it would be----
    Ms. Eshoo. Has anyone taken this on voluntarily that you 
know of?
    Mr. Rotenberg [continuing]. A very good step forward.
    Ms. Eshoo. Any companies to your knowledge taken this on 
voluntarily?
    Ms. Espinel. In terms of encryption----
    Ms. Eshoo. To adopt these practices----
    Ms. Espinel. So I would just say that----
    Ms. Eshoo [continuing]. Post-Snowden----
    Ms. Espinel [continuing]. Our companies care deeply about 
privacy. Many of them have adopted various encryption practices 
in order to protect their customers' data.
    Ms. Eshoo. Thank you to the witnesses. Again, thank you, 
Mr. Chairman.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair recognizes the gentleman from New Jersey, Mr. 
Lance, Vice Chairman of the Commerce, Manufacturing, and Trade 
Subcommittee, 5 minutes for questions.
    Mr. Lance. Thank you, Chairman, and good morning to the 
distinguished panel. And I commend you, Mr. Chairman and the 
other chairman, Mr. Walden, for this very important hearing.
    This is obviously a challenge based upon the decision, but 
I think we have the expertise and the bipartisan cooperation, 
particularly in this committee, to overcome the challenge and 
to work together to an effective solution. And I guess in the 
short-term or intermediate term, it is the negotiations now 
occurring but then moving forward. My estimate would be is that 
we probably ultimately need legislation. I would like the view 
of each member of the panel on whether I am correct on that, 
current negotiations, but then perhaps we will have to have 
legislation as well, to each member of the distinguished panel.
    Ms. Espinel. So in terms of having a long-term 
sustainable----
    Mr. Lance. Yes.
    Ms. Espinel [continuing]. Global solution, we will need to 
work with a number of countries on that, including the United 
States.
    I would say I don't want to dismiss the improvements that 
have been made to our legislation recently in the last couple 
of years and beyond legislation such as the President's Order 
number 28 and increase FTC enforcement. I do think we may need 
to look at other legislative options in the future. And we 
would obviously like to be working closely with Congress on 
that. But I think in order to come up with a global framework, 
we will be needing to work with governments around the world to 
either update their systems or to have a principle-based 
approach that is flexible enough that it could work within all 
of our systems.
    Mr. Lance. Thank you. Dr. Meltzer?
    Mr. Meltzer. Yes. I agree that a significant amount of 
progress has been made here domestically. I mean the issues 
around surveillance and collecting personal data is one which 
is obviously important domestically and has been driven by 
domestic factors rather than what the E.U. wants the U.S. to 
do. And I think that will continue to be the case.
    This discussion with the E.U. tends to be a bit distorted 
because the European Commission has no authority over national 
security issues. So what is missing in this debate on the E.U. 
side is actually the fact that the national security agencies 
are more or less doing very much what the NSA does and probably 
with a lot less due process. So we need to remember that this 
is not necessarily--the U.S. has got a particular balance 
between national security and privacy, which is working 
through, and this debate also needs to be, I think, invigorated 
when we talk about this in the E.U. context as well.
    Mr. Lance. And before answering, Mr. Rotenberg, let me say 
I share Chairman Emeritus Barton's concerns regarding privacy. 
And I think it is certainly possible to be a business-centric, 
relatively conservative Republican and greatly interested in 
privacy. And then I think it is also possible obviously on the 
other side, on the Democratic side. So your views as to whether 
we will need legislation ultimately?
    Mr. Rotenberg. Thank you. I am quite certain you will need 
legislation. And let me tell you what I think will happen----
    Mr. Lance. Yes, sir.
    Mr. Rotenberg [continuing]. If you don't have legislation.
    Mr. Lance. Yes, sir.
    Mr. Rotenberg. If you only have a revised Safe Harbor 2.0 
and you don't address these 702 problems and wait until 2017 
when that expires and you don't solve the problem that the FTC 
actually doesn't have enforcement, I think you will almost 
immediately see European data protection agencies attack the 
revised agreement. So to have a meaningful agreement that 
addresses the concerns that have been set out in the court's 
opinion, you have to do at least those two things. You have to 
update 702 and you need enforcement authority for the FTC.
    Mr. Lance. Thank you. Mr. Murphy--and I am certainly 
interested in you with the Chamber of Commerce because you 
represent what is best in America and our entrepreneurial 
spirit.
    Mr. Murphy. Well, thank you. Certainly, it is in the realm 
of a pro-business conservative to support privacy in businesses 
as well.
    Mr. Lance. Of course.
    Mr. Murphy. Privacy is indispensable.
    Mr. Lance. Of course. Of course.
    Mr. Murphy. And companies take this very seriously.
    I would just add a clarification, though, that with regard 
to whether or not there should be further privacy legislation 
in the United States, the ruling of the European Court of 
Justice does not provide a roadmap for that. It was process-
oriented. It had to do with federalism within the European 
Union. It did not assess in any comprehensive way U.S. privacy 
laws.
    Mr. Lance. Substantive--yes, it was a procedural matter.
    I think this is very helpful, and I am sure we will 
continue to work with the entire group. And this is an 
important issue. And, Mr. Chairman, I yield back at 17 seconds.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentleman from Vermont, Mr. Welch, 
5 minutes for questions, please.
    Mr. Welch. Thank you very much, Mr. Chairman, and thank the 
witnesses.
    Mr. Rotenberg, you mentioned that if we are--the 
legislation would have to address the 702 problem and provide 
FTC enforcement, correct?
    Mr. Rotenberg. [Nonverbal response.]
    Mr. Welch. I want to ask you, Mr. Murphy, whether that 
would be problematic for you to allow the FTC to actually have 
the enforcement authority and to address the 702 problem.
    Mr. Murphy. I don't think we are in a position to assess 
that right now, but as a general rule, the business community 
has felt that the FTC does have extensive abilities to enforce 
U.S. privacy laws that exist. And we are constantly trying to 
educate our European colleagues about the misconceptions may 
have about the U.S. privacy regime. There is----
    Mr. Welch. Well, let me just interrupt a second because 
this is really pretty critical. You have got, I think, general 
agreement here that we definitely want to have this Safe Harbor 
agreement extended. We want to be able to have this fluid flow 
of information back and forth really for business reasons. 
There is a general agreement on privacy. But in order for there 
to be real enforcement, there has to be some mechanism to take 
action in the event there is a breach that then gets us 
sometimes in this committee into a debate about the authority 
of, in this case, the FTC to act. There are a lot of folks, I 
think, who are pro-business who would be in favor of proper 
enforcement as long as it didn't go overboard. So I am just 
looking for some indication from you as to the openness from 
your perspective as someone who would be advocating for the 
business advantages of having that include a proper enforcement 
by a regulatory agency like the FTC.
    Mr. Murphy. It is something that I think calls for further 
investigation with our membership.
    Mr. Welch. OK. Ms. Espinel, let me ask you a few questions. 
Thank you very much, by the way.
    Just to recount the amount of business that goes back and 
forth, I mean, what are the implications for your industry in 
the event this problem is not solved?
    Ms. Espinel. So the implications are very significant, and 
it is not just the nearly 5,000 companies that have used the 
Safe Harbor. It is the millions of customers that rely on that. 
But there are all sorts of other implications as well. For 
example, one of the things that we talk about in the area of 
cybersecurity is that you need information to follow the sun. 
You need cyber threat information to be in the hands of 
experts, wherever they are awake around the world, as quickly 
as possible. And things like the revocation of the Safe Harbor 
put that at risk.
    Many of the companies that rely on the Safe Harbor using 
that in part to process payroll so that their employees back at 
home can be paid on time. Revocation of the Safe Harbor puts 
that at risk.
    I am confident that there are apps being developed in every 
district represented in this room. If those small companies, 
those small app developers want to extend into Europe, the 
revocation of the Safe Harbor puts that at risk.
    But more generally, the enormous business efficiency gains 
by both big companies and small companies from remote 
computing, from data analytics cannot work unless data can move 
across borders. So the revocation of the Safe Harbor, one of 
the big risks there is that it takes all of that efficiency, 
all the enormous potential gained from that efficiency and puts 
them at risk. And that affects every economic sector. That is 
not just the software industry. That is every economic sector 
in the world.
    I will just close by saying briefly, beyond the business 
effects, there are enormous societal benefits that are coming 
from things like data analytics, from forecasting cholera 
outbreaks to saving the lives of premature babies to helping 
farmers reduce use of pesticides. But it is a very new 
industry, and I think the shadow that the Safe Harbor decision 
casts over a nascent industry is potentially very damaging.
    Mr. Welch. OK. Thank you. I only have time for one more 
question, but thank you. I consider that a call to action, Mr. 
Chairman.
    Dr. Meltzer, the dispute here, how much of it has to do in 
your view with the revelations by Snowden where, on the one 
hand, that raised questions about the privacy of information 
that was accessible to national security authorities here, but 
in Europe we are being told that in fact the security agencies 
there do the same but with less protections?
    Mr. Meltzer. Certainly, the Snowden revelations have cast a 
significant pall over the entire political discourse in Europe 
around this issue. There is generally large mistrust in a 
number of member states about the way that the U.S. Government 
accesses personal data, and it is not well understood about the 
progress that has been made in the last couple of years to 
change that balance. So I think getting that right has 
certainly been part of it.
    It is actually the case that this is a strange debate in 
Europe to the extent that the national security agencies are 
not part of the discussion here, and so the balance in the U.S. 
between innovation, privacy, and that issue is being reflected 
very differently in Europe.
    Mr. Welch. OK. Thank you. I yield back.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentleman from Ohio, Mr. Latta, 
the Vice Chairman of the Communications and Technology 
Subcommittee, 5 minutes for questions, please.
    Mr. Latta. Well, thanks very much, Mr. Chairman, and again 
to our witnesses, thanks very much for all of the information 
you have given us today. It is very enlightening.
    Because when we are talking about trade, it is important to 
all of us. I visit a lot of my businesses in my district all 
the time, and small businesses especially, it is amazing how 
many of them are telling me that they are looking at overseas 
to find more job creation for at home and then sell their 
products abroad. So this is very, very important to them to 
make sure that they can get their products out. And it is also 
making sure that they keep the people employed.
    If I could ask Mr. Murphy, again, we have been talking 
about this. I know the gentleman from New Jersey was also 
talking about it a little bit ago that when the European Court, 
you said, did not examine the recent change in the U.S. 
oversight electronic surveillance, and you get into the 
essentially equivalent to the safeguards that exist in the E.U. 
What we have to do right now to get the Europeans convinced 
that we are going to have that, essentially the equivalent for 
our businesses to be able to work with them overseas right now?
    Mr. Murphy. Well, more than anything I think we can do on 
this side of the pond, it is what we are seeing European 
business do because if failure to achieve a new Safe Harbor 
agreement is bad for American business, it is far worse for 
Europe. According to ECIPE, the European Centre for 
International Political Economy, the think tank in Brussels, 
they conducted a study which found that complete data 
localization in Europe, which is obviously the worst possible 
outcome of the controversy today, would cost the European 
economy 1.3 percent of GDP. That is more than $200 billion.
    It would mean higher costs for European consumers. As 
competition is lessened, small businesses in Europe would be 
particularly hard hit, as I think we have discussed, in a 
number of ways here. Some of the smaller E.U. member states 
would be particularly sidelined. You think about major service 
providers of digital services that are provided to companies 
and consumers, in many cases they might simply overlook some of 
the smaller member states.
    We are often hearing from our European friends that they 
want to develop their own Silicon Valley. They lament that for 
some reason the U.S. economy is much more innovative. We have 
an ICT sector in this country that is growing and growing and 
why can't they achieve it. Well, this kind of ruling could have 
a very chilling factor. And we should care about that because 
Europe is our number one economic partner by far, and if their 
economy, which is experiencing quite slow growth today, a 
failure to find a path forward here would be very costly for 
the American economy as well.
    Mr. Latta. Thank you.
    Mr. Meltzer, if I could turn to you, and again, your 
testimony and also what you have written in your testimony that 
when you look at the internet commerce in the United States 
grew from over 13 billion in 2011 to the estimate of about 133 
billion in 2018 we are seeing what is happening out there. But 
another question is, will the invalidation of the Safe Harbor 
agreement indirectly impact trade relations in economies of 
countries that are outside the E.U.?
    Mr. Meltzer. I think potentially, yes, absolutely it will 
be through a variety of mechanisms. One of them certainly is 
the fact that trade and commerce now happens in the context of 
global value chains. So a lot of the cross-border data between 
the U.S. and the E.U. is in fact incorporating imports and 
products from around the world, certainly from our NAFTA 
partners but more globally. And so the impacts and the flow-
through of reductions in transatlantic trade investment is 
going to have global implications at that level.
    More broadly is how this privacy debate, I think, plays out 
globally, whether in fact the world moves down an E.U. top-down 
privacy approach or adopts more of the U.S. bottom-up company-
led sectorial approach is going to, I think, have a broader 
implications for the types of business models and trade flows 
that happen globally and will have significant implications for 
the U.S. going forward.
    Mr. Latta. Let me ask a follow-up on that, then. What 
should the U.S. Government be doing right now to preempt the 
problems that could exist then for these countries outside the 
E.U. because of the decision?
    Mr. Meltzer. I think one of the main efforts by the U.S. 
Government has been in the APEC context, the cross-border 
privacy principles there, which has been a set of principles 
around privacy, really quite similar to the ones that the E.U. 
has. On the principle level there is not that much 
disagreement. It is really about how they are going to apply it 
and enforce, whether in fact businesses take responsibility for 
the privacy of the data or ultimately it is going to be up to 
sort of a more regulatory government approach to make sure that 
that happens.
    Now, the differences cannot be so great even on that front, 
but that model, the APEC approach, is the one that the U.S. has 
been trying to push through APEC and through other trade 
agreements in another forum.
    Mr. Latta. Well, thank you very much. Mr. Chairman, my time 
has expired and I yield back.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the gentleman from Illinois, the 
subcommittee chairman of the Environment and the Economy 
Subcommittee, 5 minutes for questions, please.
    Mr. Shimkus. You forgot to say the powerful chairman of the 
Environment and the Economy.
    Welcome. We are glad to have you here. I am going to be 
brief. I know my colleagues want to ask a few more questions, 
and we are kind of beating a dead horse.
    I just wanted to say, first of all, we need to get to Safe 
Harbor 2.0 as soon as possible. And we really can't move to 
data localization. It will hurt all these things on commerce 
not just for big businesses but individual consumers. If you 
look at banking transactions or you are looking at obviously 
information, engineering data going back, so I am not sure that 
the public understands the enormity of this issue, and so we 
want the Administration to keep moving forward possibly in this 
realm.
    But I am always curious about the court ruling and the 
European community not looking to their own backyard, and to 
the fact that I think the French new national security 
surveillance protocols are much more intrusive, and the 
proposed U.K. could be just as bad on the issues of privacy. 
So, Dr. Meltzer, can you talk about that little bit? And are 
they more intrusive in how they might differ?
    Mr. Meltzer. I think we are seeing in France following the 
attacks, the Charlie Hebdo attacks and the attacks on the 
Jewish supermarket, that there have been proposals to 
reinvigorate and strengthen the way that the national security 
agencies operate in France, and certainly some of the proposals 
there would see collection of data and due process, which would 
be less than what you see in the U.S.
    I think the point is that each country has got to find its 
own appropriate balance between national security and privacy. 
The U.S. is clearly going for a revision of that balance here 
following the Snowden leaks. The problem I think in the debate 
is that the way that discussion is playing out is that we have 
a separate debate on privacy as a human right when we talk 
about this between the U.S. and the E.U., and it ignores the 
security dimension to these, which is happening at the national 
member state level.
    Mr. Shimkus. But they are member states of the E.U., so it 
is curious for many of us to say it is oK for them locally 
within their own own country, but as a member of the E.U. to 
place these additional barriers or concerns or disrupt trade 
when internally they may be as----
    Mr. Rotenberg. Mr. Shimkus----
    Mr. Shimkus [continuing]. I want to continue. One more 
question for Dr. Meltzer, and I did want to be brief. Can you 
talk about the--Dr. Meltzer, back to the major part of the 
economy. Any parts of the economy that would not be affected if 
this Safe Harbor ruling stays in place?
    Mr. Meltzer. Most certainly, I think this point has been 
made and is worth reinforcing that this is very much an economy 
issue. This is not a digital economy issue. This is not an IT 
economy issue. The advanced economies of the United States and 
Europe are increasingly digital in their entirety, whether we 
are talking about manufacturing sector, services sector, and 
certainly the IT sector, the automobile sector, you name it. So 
there is no area that would not be affected by it.
    Mr. Shimkus. Thank you, and I want to yield back my time. 
Thank you, Mr. Chairman.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentleman from Kentucky, Mr. 
Guthrie, 5 minutes for questions, please.
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate you all 
being here. I was just in a meeting with our NATO Alliance 
members, Members of Congress, parliaments from NATO Alliance, 
and although we were talking about defense issues in our 
meetings, almost every time we were walking in or out or just 
coffee breaks, whatever, the European parliamentarians were 
very interested in talking about this issue. So it is important 
here, it is important there, and everybody is focused on that, 
so I would bring that up.
    But, Ms. Espinel and Mr. Murphy, I have a few questions. Do 
you have member companies that are headquartered in the E.U. 
but have operations, subsidiaries, or other investment vehicles 
in the U.S.? And if so, how has this decision impacted their 
business operations?
    Ms. Espinel. We do have members that are headquartered in 
the United States, and we also have members with significant 
operations in the United States. But I would say for our 
members, regardless of where they are headquartered, the risks 
are the same. Our members, regardless of where they are 
headquartered and the customers that they serve, need data to 
be moving back and forth across borders. So I think regardless 
of where--the world that we live in today, regardless of where 
you are headquartered, I think the risk of the Safe Harbor 
revocation or the risk of a world in which data cannot move 
freely back-and-forth are the same.
    Mr. Guthrie. Thank you. And, Mr. Murphy?
    Mr. Murphy. Just very briefly, we have many members that 
our U.S. affiliates of European multinationals, and they are 
just as concerned as the American companies. They see no upside 
in this. It doesn't provide some kind of a competitive 
advantage for them to have this kind of forced localization, 
which would be the worst possible outcome of the failure to 
renegotiate Safe Harbor. So there is common interest in 
securing a path forward here.
    Mr. Guthrie. All right. So, Mr. Murphy, I will ask this to 
you then. So data localization proposals have been considered 
in a number of countries in the past 3 years. This topic was 
the focus of another meeting of this subcommittee. What has 
your experience been with the challenges these types of 
proposals pose to the economies in today's global marketplace? 
Cross data flows have international implications. Kind of 
elaborate what you were just saying, I guess.
    Mr. Murphy. Yes. In more than a dozen countries around the 
world we have been active in trying to reach out to foreign 
governments to explain to them why data localization is not in 
their interest. As I mentioned earlier, there is nothing more 
common than receiving a head of state at the U.S. Chamber of 
Commerce who says we want to create our own Silicon Valley. The 
idea of putting up protectionist walls that are going to 
somehow force the location of servers in the country or the use 
of domestic-created technologies is really the worst possible 
prescription for them to be able to do that and do so in a 
globally competitive manner.
    So there have been victories in the past couple of years. 
For instance, the Brazilian Government considered measures that 
they later rolled back after hearing from businesses around the 
world, and it has been quite a constructive relationship. But 
we continue to see these issues pop up in market after market.
    Mr. Guthrie. Thanks. I have one more question for you, and 
if Ms. Espinel will comment as well.
    So first, Mr. Murphy, how would you describe the FTC as an 
enforcement agency for the Safe Harbor? And how do FTC 
enforcement actions modify business behavior in the U.S.? And 
do you see any differences in E.U. system that we should be 
aware of? And, Ms. Espinel, if you will comment after he goes.
    Mr. Murphy. Yes. Well, the U.S. has one of the strongest 
systems of enforcement led by the FTC, and it has powers and 
penalties that are significantly stronger than its counterparts 
in the European Union, including 20-year consent decrees. We 
think that many of our friends in the European Union don't take 
that into account, and in particular, don't take into account 
how these laws are actually enforced, whereas with some other 
countries that may replicate an E.U. member state law, they 
would accept their practices as somehow superior to those of 
the United States, even if enforcement is not nearly on the 
same level.
    Mr. Guthrie. Thanks. Ms. Espinel?
    Ms. Espinel. I would just say, you know, I think at a 
fundamental level the systems and certainly the focus on 
privacy between the United States and Europe are not that 
different, but one of the things that is different about our 
system is the enforcement authority of the FTC. And I would say 
on behalf of the software sector we have seen the FTC 
increasing its enforcement authority and using it in ways--and 
we think that those are positive steps.
    We do think, as has been alluded to earlier today, that 
there may not be a full understanding on the other side of the 
Atlantic of the improvements that have been made in our privacy 
system, including FTC enforcement. I think that is something we 
need to collectively try to address.
    But to your basic question, we are supportive of FTC 
enforcement, and we have been seeing more of that over recent 
years, and we think that is a good development.
    Mr. Guthrie. Thank you. And I yield back the balance of my 
time. I appreciate it.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentleman from Mississippi, Mr. 
Harper, 5 minutes for questions, please.
    Mr. Harper. Do you need to say Mississippi again, Mr. 
Chairman? Did you get that?
    Mr. Burgess. [Nonverbal response.]
    Mr. Harper. Thank you. And thanks to each of you for being 
here today. This is a critically important topic, and to 
discuss this is very important.
    And, Ms. Espinel, if I could ask you first, can you explain 
how the United States can make the case that we offer essential 
equivalence in terms of data protection currently?
    Ms. Espinel. So, I would say a couple of things. I think in 
terms of--as we said before, I think our immediate goal is to 
try to get a new Safe Harbor, and I think that is a step that 
the European Commission can take if they choose to do so. And 
we are optimistic that they will choose to do so.
    But in looking at the long term, essential equivalence or 
the appropriate standing for privacy protection, that is 
something that is going to continue to evolve, so that is our 
opinion, as laws and practices change around the world. And so 
what we need for the long term is we need a system that is 
flexible enough. We believe we need a system that is based on 
principles as opposed to prescriptive regulations. And we need 
a system that recognizes the importance of privacy. And again, 
I don't think the differences there between the United States 
and Europe are that great, but also creates a framework so that 
a person's personal data will attract the same level of 
detection as it moves around the world. I think that is 
something that is important to the United States, as well as 
Europe.
    And we need to be able to find the right balance. We need 
to let law enforcement do the job that it has to do. And you 
will not be surprised to hear, on behalf of the business 
community large and small, we need to have a system that will 
reduce the legal uncertainty of the situation that we face 
today.
    Mr. Harper. OK. And of course the challenge for us is to 
make sure that the rules and regulations don't get in the way 
of the technology that seems to move at a much faster pace on 
occasion. So it is a challenge for all of us to go there.
    Mr. Murphy, if I could ask you, and I know following up on 
what has been discussed, what you have mentioned, the ECJ 
ruling puts some European businesses who transfer data to 
American companies at risk as well. Could you discuss further 
whether European businesses have any incentive to put pressure 
on the U.S. and the Commission to come to an agreement on the 
Safe Harbor, and if so, how?
    Mr. Murphy. Well, thank you for that question. Many of our 
sister associations on the other side of the Atlantic are hard 
at work reaching out to the European Commission and to member 
state governments urging them to find a path forward as well. 
If there is one thing that businesses of all sizes dislike, it 
is uncertainty, and the reach of the ruling that came out in 
early October was significantly further than anything that was 
anticipated. And the absence of any kind of a clear transition 
plan, guidance to companies on how they should behave in the 
interim while--plus, potentially, this new Safe Harbor 
agreement is concluded, has caused real concern across 
companies in Europe as well. So we have encouraged them to make 
their voices heard in Europe, as we are doing here.
    Mr. Harper. Thank you, Mr. Murphy.
    With that, I yield back, Mr. Chairman.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentleman from Texas, Mr. Olson, 5 
minutes for questions, please.
    Mr. Olson. I thank the chair. And welcome to all four 
witnesses.
    In many ways, Europe is following Rahm Emanuel's--President 
Obama's first chief of staff--lead. He said, ``you never want a 
serious crisis to go to waste.'' The difference is this is not 
a serious crisis. It is a problem. Again, it is not a serious 
crisis. It is a problem that will be a crisis unless we fix it 
by January 31 of next year.
    Mr. Murphy, Ms. Clarke brought up the BCRs, the binding 
corporate rules, also the model contract clauses. Companies 
have those in effect right now. How are they impacted by the 
ECJ decision with their data?
    Mr. Murphy. How----
    Mr. Olson. How are they impacted? How are the contract 
clauses and the binding corporate rules--companies have those. 
Their data, how is it impacted by the ECJ's ruling?
    Mr. Murphy. Well, these mechanisms were not invalidated by 
the ruling. However, they are practically out of reach for so 
many different companies. And as was mentioned earlier, the 
expense of $1 million and the time it takes, 18 months, to 
negotiate a new one has made them really impractical for many 
companies to consider this as an alternative. And you might 
think that in the wake of this ruling that many companies are 
considering whether and how they can enter into more of these. 
And it appears that in the case of some large companies, they 
are definitely examining some of these alternatives going 
forward. But for the smaller companies, it simply isn't 
tenable.
    Mr. Olson. Ms. Espinel, care to comment on that issue, the 
BCRs, the MCCs with your members?
    Ms. Espinel. So many of our members are looking at various 
mechanisms to address this, but I would echo what Mr. Murphy 
said. Despite the fact that the European Court of Justice 
opinion does not speak directly to things like the model 
contract clauses, they are first out of reach for many, many 
businesses around the world.
    And second, to us, they do not represent the sort of long-
term solution that we need to have, and that is why we continue 
to focus on the fact that, while we think it is immediate and 
vital to have a new Safe Harbor in place and then have some 
time for companies to come into compliance with that, we need 
to have a long-term solution that moves beyond things like 
model contract clauses so that we do not find ourselves in this 
situation again a year or two down the road.
    Mr. Olson. One final question for all witnesses, the ECJ's 
decision may open up liability for data transfers from Europe 
to America for the entire period of the 15 years of Safe 
Harbor. A Bloomberg article says we may be exposed to 
liability. My question is, is that real, Ms. Espinel? Is that a 
real issue out there? Can 15 years be thrown away with this 
court decision, exposed liability, American companies, European 
companies?
    Ms. Espinel. I think there is a real risk there. However, I 
would echo what you said. I think what we are facing right now 
is a significant problem, not a crisis, and I say that in part 
because we are confident that the United States and Europe will 
be able to come to a sensible resolution and conclude a Safe 
Harbor and avoid that situation.
    Mr. Olson. Dr. Meltzer, your comments, sir?
    Mr. Meltzer. Let me just say briefly on your question about 
BCR and contracts, I agree with what the panelists have said. 
It is worth noting that data protection authorities in Germany 
have specifically said that they do not think that BCRs and 
contracts are legally viable mechanisms any longer. The concern 
obviously is that the structural problems that the European 
Court of Justice has found with the privacy regime here in the 
United States is broadly applicable to contracts and BCRs as 
well. So the issues there make these other mechanisms also 
unstable.
    Mr. Olson. Thank you. Mr. Rotenberg, the question about 
liability thrown out for----
    Mr. Rotenberg. Yes, Mr. Olson, I don't think there would be 
retroactive application of the Safe Harbor decision for prior 
data transfer, so the short answer is I don't think that risk 
exists.
    However, I think there is another risk to be aware of, 
which is that this January 2016 deadline that people are 
talking in terms of presumes that the Article 29 Working Party 
can keep all of the data protection officials in Europe in 
check. And all of those national officials have independent 
authority, so it is actually possible that at any time over the 
next few months there could be an enforcement action after the 
Schrems decision became final.
    Mr. Murphy, data for the last 15 years of our Safe Harbor, 
some sort of liability for those?
    Mr. Murphy. I don't have an answer for you, but certainly, 
this is precisely the sort of uncertainty that alarms corporate 
counsel and companies across the country.
    Mr. Olson. I thank the witnesses. I ask unanimous consent 
to enter the article from Bloomberg in the record. And, 
Chairman, I yield back.
    Mr. Burgess. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. The chair recognizes the gentleman from 
Kansas, Mr. Pompeo. Thank you for your forbearance, and you are 
recognized for 5 minutes for questions.
    Mr. Pompeo. Thank you, Mr. Chairman.
    I want to try and clear away some of what I think are the 
underlying facts. We have talked a lot about policy. I want to 
make sure we have got, as best I can, some basic facts in 
place.
    Ms. Espinel, maybe we will start with you. Your companies' 
data, if the data belongs to a U.S. person or a non-U.S. 
person, do your companies treat that data any differently?
    Ms. Espinel. Our companies put the highest level of 
protection and security on all of their customers' data, 
regardless of the nationality.
    Mr. Pompeo. Right. So they treat it identically. Mr. 
Murphy, same for yours? It doesn't matter whether a U.S. person 
or--the data is treated identically?
    Mr. Murphy. Absolutely.
    Mr. Pompeo. The same protections? We could go look at the 
record. I have heard the word privacy concerns uttered maybe 50 
times this morning. Concerns are one thing. Ms. Espinel, is 
there any evidence of abusive practices from U.S. companies 
with respect to handling PII of either U.S. persons or non-U.S. 
persons? We have data breaches, we have data get out. I get 
that. But yes, to you.
    Ms. Espinel. So I will speak on behalf of my members. Our 
members are not abusing the data of their customers.
    Mr. Pompeo. Right. They are doing their best to protect it. 
Mr. Murphy, I assume yours are as well?
    Mr. Murphy. That is certainly my impression. And the 
potential reputational damage from failure to do so is, I 
think, a powerful factor in their consideration.
    Mr. Pompeo. I completely agree. And let's talk about 
reputational damage actually. Mr. Rotenberg in his written 
testimony in the summary said ``transatlantic data transfers 
without legal protections were never safe.'' Mr. Murphy, do you 
think that is true? Do you think these data transfers have been 
performed in an unsafe manner?
    Mr. Murphy. No, I think that it has been a 15-year record 
of success and really comparable in success to that related to 
data transfers within Europe between member states.
    Mr. Pompeo. Ms. Espinel, would you agree with that?
    Ms. Espinel. Speaking for the members that I represent, 
yes, I would agree with that.
    Mr. Pompeo. So I think it is that kind of hyperbole that 
has caused the European elected officials to have no backbone 
on this issue. I get the politics, I get the protectionism. I 
completely understand how they have all watched the Snowden 
hearings and decided they could get elected but didn't defend 
the privacy actions that are taken by your companies. We have 
had talk today about Section 702. Mr. Murphy, do any of your 
clients ever collect data under Section 702?
    Mr. Murphy. I just have no information on that.
    Mr. Pompeo. Yes. Ms. Espinel, do you know?
    Ms. Espinel. I don't. But what I would say is that we have 
made this point in the hearing before. I think one of the 
things that is crucial here is that there is a real lack of 
understanding on both sides of the Atlantic, but I think the 
Europeans, both on privacy regimes but also, as was touched on 
earlier, the complications of our various surveillance regimes. 
And one thing that I don't think has been done but I think be 
very useful is to have a comprehensive analysis of the 
surveillance regimes across the European Union states because I 
don't think there is a good and clear understanding, and I 
think that has led to a lot of confusion, you know, deliberate 
or not.
    Mr. Pompeo. Yes, I think that is not lack of understanding. 
I think that is willful ignorance. But maybe we disagree.
    Mr. Rotenberg, I want to make sure I understood something 
you said. You talked about Section 702 a bit. I know a little 
bit about it but maybe you know more. Is it your position that 
U.S. persons and non-U.S. persons should be treated identically 
with respect to the U.S. Government collection of information?
    Mr. Rotenberg. I think under the Foreign Intelligence 
Surveillance Act there is a clear distinction----
    Mr. Pompeo. No, I am asking if you think. You have 
suggested a modification to U.S. law. That is U.S. law. I guess 
my question is, is it your position or your organization's 
position that U.S. persons and non-U.S. persons should be 
treated identically with respect to government information 
collection?
    Mr. Rotenberg. As a general matter, yes. And most of U.S. 
privacy law takes that position, particularly on the commercial 
side. There is no distinction in our commercial privacy law----
    Mr. Pompeo. Yes.
    Mr. Rotenberg [continuing]. Between U.S. persons and non-
U.S. persons.
    Mr. Pompeo. Fair enough. Just so you know, that would be 
historic. You could very well be right about it being proper, 
but no nation has ever behaved that way with the collection of 
data for their own citizens as against the others. There is 
always a wrinkle. There is always an exception. There is always 
a Section 1233, executive order. There is always a way that 
nations have, in their efforts to provide national security for 
their own people, have behaved that way. And I actually think 
the United States has done a remarkable job of protecting 
citizens all around the world and protecting their data in 
their efforts to keep us all safe. I think that is important.
    Mr. Rotenberg. Sir, may I ask, do you think that the Office 
of Personnel Management has done an excellent job protecting 
the records of the federal employees----
    Mr. Pompeo. Well, no, sir. There are errors all along the 
way. I am asking----
    Mr. Rotenberg. Twenty-one-and-a-half million records----
    Mr. Pompeo [continuing]. About policy. I am asking about 
policy and----
    Mr. Rotenberg. SF-86, those----
    Mr. Pompeo. Yes.
    Mr. Rotenberg [continuing]. Are the background 
investigations----
    Mr. Pompeo. Very familiar with that. I filled one out and I 
think mine was released as well, sir, so I am intimately 
familiar with that. I didn't say we didn't have errors and 
mistakes. I am simply talking about policy.
    Let me ask one more question. Mr. Murphy, you talked about 
this million-dollar cost for private solutions, these BCRs or 
other delegated methodologies. Is there any way to drive that 
cost down? Is there any way to make that a hundred-thousand-
dollar cost instead of a million-dollar cost?
    Mr. Murphy. Not substantially. And I think that as we look 
at some of these alternatives like BCRs to the degree that they 
do continue to be relevant going forward, it is a field day for 
lawyers. And I suppose there is some job creation in that. But 
that is clearly not the intention of the policy.
    Mr. Pompeo. Thank you. I am past my time. Thank you for 
bearing with me, Mr. Chairman. I yield back.
     Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the gentleman from Florida, Mr. 
Bilirakis, 5 minutes for your questions, please.
    Mr. Bilirakis. Thank you, Mr. Chairman. I thank the panel 
for testifying.
    This issue arose quickly, and I am glad we are addressing 
it today so that some certainty can be given to the numerous 
businesses seeking answers as they tried to continue the 
pursuits in a global marketplace.
    Ms. Espinel and Mr. Murphy, I know you touched on this a 
bit, but what challenges are companies facing as they evaluate 
and even implement the other mechanisms in the E.U. that permit 
data transfers to countries outside the E.U.?
    Ms. Espinel. So one specific challenge that companies are 
facing, big companies and small companies, is the processing of 
their payroll and making sure that their employees get time. If 
there is not a resolution of the Safe Harbor, that is something 
that could be at risk. And that is obvious business disruption, 
but it is also disruption to the lives of human beings that are 
employed by those companies.
    Let me mention one thing that I haven't mentioned before. 
We did a survey last year, which I would be happy to share, 
where we talked to the CEOs and senior executives of companies 
in the United States and Europe in terms of what data meant to 
them and how valuable it was to their business. And one of the 
things that was really surprising to me is really small 
companies, companies that have less than 50 employees, already 
today find data enormously important to going into new markets, 
serving their customers, developing new products. What I found 
less surprising is that that is true on both sides of the 
Atlantic. So for U.S. companies and for European companies the 
ability to move data back and forth in order to do business is 
critically important.
    Mr. Bilirakis. Thank you, Ms. Espinel.
    Mr. Murphy?
    Mr. Murphy. Well, a little to add but I would just--to 
recapitulate one point, the morning the ruling came out I think 
many of us were just disappointed at the lack of any guidance 
that came out from the European Commission. And there has been 
a little more since then, but that is exactly the kind of 
uncertainty that serves as a wet blanket on the economy at a 
time when not only is the U.S. economy not growing as rapidly 
as we would like, but in Europe, far worse. And it is the last 
thing that the global economy overall needs right now.
    Mr. Bilirakis. Well, thanks so much. Another question for 
you, Mr. Murphy. What impact does the European Court of Justice 
ruling have on the negotiations of other large-scale 
international trade agreements like the TPP and the T2?
    Mr. Murphy. So the United States and the European Union are 
2 years into negotiating a comprehensive Transatlantic Trade 
and Investment Partnership agreement. These negotiations are 
still at a relatively early stage despite the length of time 
involved. This kind of a ruling, though, it does certainly put 
a damper on the mood in the room. After all, the TTIP, as that 
negotiation is called, is intended to safeguard not just the 
movement of goods and services across international borders but 
also data as a trade issue.
    U.S. trade agreements, including the TPP, have strong 
measures to prohibit the forced localization of data. And of 
course, privacy regimes coexist with those trade obligations. 
And privacy obligations are not undermined by the trade 
agreements.
    But the situation we have right now with the invalidation 
of the Safe Harbor agreement certainly has led some to question 
the seriousness with which we can move forward in those 
negotiations.
    Mr. Bilirakis. So there are some national security concerns 
until the Safe Harbor agreement is signed?
    Mr. Murphy. Well, certainly for commercial data and the 
ability to move it across border, that is very much a concern.
    Mr. Bilirakis. Thank you. Thank you.
    Dr. Meltzer, what impact has the global reach of the 
internet had on small and medium-sized businesses? You 
mentioned in your testimony that they are underrepresented in 
international trade. Is this just a function of their size or 
can we incentivize small- and medium-sized businesses in 
international trade agreements going forward?
    Mr. Meltzer. Traditionally, SMEs have not made big plays in 
the international economic landscape. It has been for a variety 
of reasons to do with cost and capacity. The internet has 
certainly changed that for them. The International Trade 
Commission did an interesting study which found that access to 
information, for instance, about overseas markets has been one 
of the key barriers for small- and medium-sized enterprises. In 
just thinking about going global, the cost of getting that 
information is obviously now close to zero. That is just one 
example of the many ways that internet and internet platforms 
are now providing new opportunities for SMEs to be part of the 
global economy.
    Mr. Bilirakis. Thank you. I yield back, Mr. Chairman. I 
appreciate it.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentlelady from Indiana, Mrs. 
Brooks, 5 minutes for questions.
    Mrs. Brooks. Thank you, Mr. Chairman.
    My home State of Indiana has a large contingent of 
pharmaceutical and device companies who depend on the Safe 
Harbor to transfer, and I believe we have talked about the 
issues of big data and those companies that are using big data. 
Companies like Eli Lilly use the cloud-based software for the 
users, can share of medical images with other departments and 
centers and countries around the world to improve the product 
design, to allow for nearly instantaneous interpretation and 
diagnosis of medical records, and compile records for clinical 
studies.
    And we certainly know that the utilization of cross-border 
data enables all of our life sciences companies in the country 
to use these data sets so we can get treatments and that we can 
improve faster development of treatments and diagnoses and 
better health care for not just those in the U.S. but for the 
world. So I certainly recognize the anxiety everyone is having 
at this point in time based on the ECJ decision.
    But I am curious, what do you think we should be watching 
in these next few months as this January 2016 deadline is 
approaching? What should we be watching and what--there has 
been dialogue about this with our government and with the E.U. 
members for years now. I actually participated in one of those 
discussions in late 2013 in Brussels with some other Members of 
Congress, a bipartisan delegation, but yet, it does not seem as 
if we have bridged the gap of either trust or of understanding. 
And I am curious what you all believe we need to be doing a 
better job of doing to either get to a Safe Harbor agreement 
2.0.
    And my second question is why do we believe that the court 
will even agree or why do we believe it would even be upheld 
and not challenged immediately again? And I guess I would like 
to hear each of your comments. Ms. Espinel?
    Ms. Espinel. So in the short-term, as you say, I think we 
need to focus on concluding the Safe Harbor. The kind of 
discussion that you were having with your European counterparts 
I think is really important. I think having hearings like this 
that focus on the issue is really important. I think if we are 
going to be able to make progress both in terms of concluding 
in the short term the negotiations and the longer-term 
solution, we need to have a constructive political environment. 
And part of the way that we get there is by having Congress in 
contact not just with the Administration but also with your 
European counterparts both to help them understand our privacy 
system better and understand the improvements that have been 
made in that privacy system. I think that is a really important 
role that Congress can play both in the short term and over the 
longer term.
    Mrs. Brooks. So I attended with the chair of the House 
Intelligence Committee, Chairman Rogers and the ranking member, 
Ranking Member Ruppersberger, in this delegation meeting. Are 
you familiar with other conversations? That was in 2013. And 
are you familiar with other conversations that Members of 
Congress have had or that--because it is clear to me that what 
the negotiations and the discussions between the Administration 
officials, it is not working.
    Mr. Rotenberg. Right----
    Mrs. Brooks. So where are we falling down?
    Mr. Rotenberg. Let me begin by saying I actually think 
Congressman Sensenbrenner deserves a lot of recognition----
    Mrs. Brooks. Yes.
    Mr. Rotenberg [continuing]. For the work that he has done 
on this issue. I think it is one more demonstration of how 
privacy really does cross the aisle. And I know he has 
expressed concern about making changes to 702, and that is one 
of the issues that we think does need to be addressed.
    But I think it is also important in the context of this 
hearing to understand that there is a difference between the 
political negotiation that takes place between the U.S. 
Commerce Department and the European Commission and a judicial 
decision from the top court in Europe. I mean this really is a 
game changer, and it impacts what even the European Commission 
can do in its negotiation with the United States. So to your 
question, I think it will be very interesting to see over the 
next few months how this change in European Union law, which is 
what has happened, will influence the privacy officials across 
Europe. They may decide to take enforcement actions.
    Mrs. Brooks. Mr. Murphy?
    Mr. Murphy. I think one of the most important things that 
Members of Congress can do is to educate their European 
counterparts on the importance of these data flows. And coming 
back to your example about medical devices, just yesterday, we 
were hearing from one of our member companies that manufactures 
medical devices, and some of these, such as different scanners, 
CAT scanners, PET scanners, MRIs are very large, expensive, 
sophisticated pieces of equipment. In some smaller E.U. member 
states there may be only a very small handful of them around. 
And they are often maintained and used remotely. That is 
another example of the kind of data which needs to flow.
    And talk about taking the whole to date to a very personal 
level, that the ability to get this kind of medical 
information, the idea that it could be impeded by a failure to 
arrive at a new Safe Harbor agreement is something that I think 
all of us find concerning.
    Mrs. Brooks. Thank you. I yield back.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair would just ask, are there any other Members 
seeking time for questions?
    Seeing none, I do want to thank our witnesses for being 
here today. Before we conclude, I would like to submit the 
following documents for the record by unanimous consent: a 
statement from the International Trade Administration at the 
United States Department of Commerce, a letter from the Direct 
Marketing Association, a statement from the Information 
Technology and Innovation Foundation, a statement from the 
American Action Forum, a joint letter from the Auto Alliance, 
American Automotive Policy Council, and Global Automakers, and 
a list of all of the 4,400 United States companies who are 
active beneficiaries of the Safe Harbor agreement. \1\ I will 
not read them unless asked.
---------------------------------------------------------------------------
    \1\ The list has been retained in committee files and is also 
available at http://docs.house.gov/meetings/if/if16/20151103/104148/
hhrg-114-if16-20151103-sd015.pdf.
---------------------------------------------------------------------------
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind members 
they have 10 business days to submit additional questions for 
the record. I ask the witnesses to submit their responses 
within 10 business days of the receipt of those questions.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 12:17 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
